No.
IN THE

Supreme Court of the United States
CALVIN MCMILLAN,

Petitioner,

v.
STATE OF ALABAMA,

Respondent.

On Petition for Writ of Certiorari
to the Alabama Court of Criminal Appeals
Petition for Writ of Certiorari
DONALD B. VERRILLI, JR.
XIAONAN APRIL HU
MUNGER, TOLLES & OLSON LLP
1155 F Street NW, 7th Floor
Washington, DC 20004
(202) 220-1107
Donald.Verrilli@mto.com

MICHAEL ADMIRAND
Counsel of Record
PATRICK MULVANEY
KATHERINE MOSS
SOUTHERN CENTER FOR
HUMAN RIGHTS
60 Walton St. NW
Atlanta, GA 30303
(404) 688-1202
madmirand@schr.org

i
TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................... 1
PARTIES TO THE PROCEEDING ............................ 2
LIST OF RELATED PROCEEDINGS ........................ 2
PETITION FOR WRIT OF CERTIORARI ................. 4
INTRODUCTION ........................................................ 5
STATEMENT OF THE CASE..................................... 6
REASONS FOR GRANTING THE WRIT ................ 10
I.

II.

The Execution of a Person Sentenced to
Death by Judicial Override Violates the
Eighth Amendment. ........................................ 10
A.

Death Sentences Imposed by
Judicial Override Are Arbitrary,
Unreliable, and Capricious. ................. 12

B.

Death Sentences Imposed by
Judicial Override Deviate from
Existing Standards of Decency. ........... 14

C.

The Execution of a Person Who
Was Sentenced to Death by
Judicial Override Serves No
Legitimate Penological Purpose. ......... 17

D.

This Court Should Revisit
Spaziano and Harris. ........................... 18

This Case Is an Ideal Vehicle for
Addressing the Constitutionality of
Judicial Override............................................. 22
A.

The Case Exemplifies the
Problems with Judicial Override. ........ 22

ii
TABLE OF CONTENTS
(Continued)
Page
B.

The Case Is Well Suited for
Certiorari Review Because the
State Court’s Decision Turned on
the Constitutional Question
Presented. ............................................. 24

CONCLUSION .......................................................... 28
APPENDICES
APPENDIX A: March 20, 2020 – Certificate of
Judgment of the Supreme Court of Alabama
denying writ of certiorari .......................................... 1a
APPENDIX B: November 9, 2018 – Order of
the Alabama Court of Criminal Appeals
affirming the judgment of the circuit court .............. 3a
APPENDIX C: March 9, 2018 – Order of the
Circuit Court of Elmore County, Alabama
dismissing successive petition................................. 19a
APPENDIX D: August 7, 2009 – Sentencing
Order of the Circuit Court of Elmore County,
Alabama ................................................................... 24a

iii
TABLE OF AUTHORITIES
Page
FEDERAL CASES
Ake v. Oklahoma,
470 U.S. 68 (1985) .......................................... 24, 25
Atkins v. Virginia,
536 U.S. 304 (2002) .......................................passim
Caldwell v. Mississippi,
472 U.S. 320 (1985) .............................................. 10
Click v. Alabama,
136 S. Ct. 1363 (2016) .......................................... 26
Eddings v. Oklahoma,
455 U.S. 104 (1982) ................................................ 5
Enmund v. Florida,
458 U.S. 782 (1982) .............................................. 20
Ford v. Wainwright,
477 U.S. 399 (1986) ........................................ 15, 16
Foster v. Chatman,
136 S. Ct. 1737 (2016) .......................................... 25
Franchise Tax Bd. of Cal. v. Hyatt,
139 S. Ct. 1485 (2019) .......................................... 19
Furman v. Georgia,
408 U.S. 238 (1972) ........................................ 10, 21
Graham v. Florida,
560 U.S. 48 (2010) .......................................... 11, 16

iv
TABLE OF AUTHORITIES
(Continued)
Page
Gregg v. Georgia,
428 U.S. 153 (1976) .............................................. 13
Harris v. Alabama,
513 U.S. 504 (1995) .......................................passim
Herb v. Pitcairn,
324 U.S. 117 (1945) .............................................. 24
Kennedy v. Louisiana,
554 U.S. 407 (2008) ............................ 11, 16, 17, 20
McGirt v. Oklahoma,
140 S. Ct. 2452 (2020) .......................................... 22
McMillan v. Alabama,
139 S. Ct. 265 (2018) .............................................. 9
McMillan v. Alabama,
572 U.S. 1036 (2014) .............................................. 9
Miller v. Alabama,
567 U.S. 460 (2012) .............................................. 26
Montgomery v. Louisiana,
136 S. Ct. 718 (2016) ............................................ 26
Panetti v. Quarterman,
551 U.S. 930 (2007) .............................................. 17
Parker v. Dugger,
498 U.S. 308 (1991) .............................................. 13

v
TABLE OF AUTHORITIES
(Continued)
Page
Penry v. Lynaugh,
492 U.S. 302 (1989) .............................................. 20
Ramos v. Louisiana,
140 S. Ct. 1390 (2020) ...................................passim
Roper v. Simmons,
543 U.S. 551 (2005) ............................ 11, 16, 17, 20
Saffle v. Parks,
494 U.S. 484 (1990) ........................................ 12, 14
Spaziano v. Florida,
468 U.S. 447 (1984) .......................................passim
Stanford v. Kentucky,
492 U.S. 361 (1989) .............................................. 20
Three Affiliated Tribes of Fort Berthold
Reservation v. Wold Engineering,
P.C.,
467 U.S. 138 (1984) ........................................ 24, 25
Trop v. Dulles,
356 U.S. 86 (1958) ................................................ 10
Wiggins v. Smith,
539 U.S. 510 (2003) .............................................. 23
Witherspoon v. Illinois,
391 U.S. 510 (1968) .............................................. 18

vi
TABLE OF AUTHORITIES
(Continued)
Page
Woodson v. North Carolina,
428 U.S. 280 (1976) ........................................ 12, 21
Woodward v. Alabama,
134 S. Ct. 405 (2013) .......................... 11, 13, 15, 19
STATE CASES
Click v. State,
215 So. 3d 1189 (Ala. Crim. App.
2016).......................................................... 25, 26, 27
McMillan v. State,
139 So. 3d 184 (Ala. Crim. App. 2010)................... 9
McMillan v. State,
258 So. 3d 1154 (Ala. Crim. App.
2017)........................................................................ 9
Rauf v. State,
145 A.3d 430 (Del. 2016) .................................. 8, 15
FEDERAL STATUTES
28 U.S.C. 1257(a) ......................................................... 4
STATE STATUTES
Ala. Code 13A-5-47 (2017) ................................. 8, 9, 15
Ala. Code 13A-5-47.1 (2017) ........................................ 9
Fla. Stat. 921.141(3)(a)(1) (2016) .......................... 8, 15

vii
TABLE OF AUTHORITIES
(Continued)
Page
Ind. Code 35-50-2-9(e) (2002) ................................ 8, 15
STATE RULES
Ala. R. Crim. P. 32 ........................................... 9, 26, 27
Ala. R. Crim. P. 32.2(b).............................................. 25
Ala. R. Crim. P. 32.2(c) ........................................ 26, 27
CONSTITUTIONAL PROVISIONS
U.S. Const. Amendment VIII ...................................... 4
OTHER AUTHORITIES
Brian Lyman, Judicial Override May be
Dead After Alabama House Vote,
Montgomery Advertiser (updated
Apr. 12, 2017),
https://www.montgomeryadvertiser.c
om/story/news/politics/southunionstr
eet/2017/04/04/alabama-house-votesend-judicial-override/100037694/......................... 13

viii
TABLE OF AUTHORITIES
(Continued)
Page
Brian Lyman, Senate Votes to End
Judicial Override in Capital Cases,
Montgomery Advertiser (updated
Feb. 24, 2017),
https://www.montgomeryadvertiser.c
om/story/news/politics/southunionstr
eet/2017/02/23/senate-votes-endjudicial-override-capitalcases/98302650/ .............................................. 11, 16
Innocence Database, Death Penalty Info.
Center,
https://deathpenaltyinfo.org/policyissues/innocence-database ................................... 14
State’s Brief in Opposition to Certiorari,
Madison v. Alabama,
No. 17-7535 (U.S. Jan. 25, 2018) ......................... 27

1
CAPITAL CASE
QUESTION PRESENTED
At the penalty phase of Petitioner Calvin
McMillan’s capital trial in Alabama, the jury voted 84 for a sentence of life in prison without parole.
Speculating that the jury voted for life only because
the jurors were “tired” of the deliberative process, the
trial judge overrode the jury and imposed a death
sentence. This practice, known as judicial override,
was permitted by Alabama law at the time of the trial.
It has since been abandoned, in no small part due to
growing concerns that it was an unreliable and
inappropriate way to impose death sentences. The
result is that no State in the country now permits a
judge to sentence a defendant to death over a jury’s
vote for life. Nevertheless, McMillan is one of thirtytwo people on Alabama’s death row who faces
execution based on judicial override.
The question presented is this:
Does the execution of a person sentenced
to death by judicial override violate the
Eighth Amendment?

2
PARTIES TO THE PROCEEDING
Petitioner is Calvin McMillan. Respondent is the
State of Alabama. Because no petitioner is a
corporation, a corporate disclosure statement is not
required under Supreme Court Rule 29.6
LIST OF RELATED PROCEEDINGS
Trial and Direct Appeal
State v. McMillan, Elmore Cty. No. CC-08-476 (Aug.
7, 2009)
McMillan v. State, Ala. Crim. App. No. CR-08-1954
(Nov. 5, 2010)
Ex parte McMillan, Ala. No. 1100441 (Aug. 23, 2011)
McMillan v. Alabama, S. Ct. No. 13-8054 (Mar. 31,
2014)
State Post-Conviction Proceedings
McMillan v. State, Elmore Cty. No. CC-08-476.60
(Mar. 17, 2015)
McMillan v. State, Ala. Crim. App. No. CR-14-0935
(Aug. 11, 2017)
Ex parte McMillan, Ala. No. 1170215 (Feb. 23, 2018)
McMillan v. Alabama, S. Ct. No. 18-5396 (Oct. 1,
2018)
Federal Habeas Review
McMillan v. Dunn, et al., M.D. Ala. No. 2:18-cv00844-WKW (pending)

3
Second State Post-Conviction Proceedings (Instant
Appeal)
McMillan v. State, Elmore Cty. No. CC-08-476.61
(Mar. 9, 2018)
McMillan v. State, Ala. Crim. App. No. CR-17-0718
(Nov. 9, 2018)
Ex parte McMillan, Ala. No. 1180438 (Mar. 20, 2020)

4
PETITION FOR WRIT OF CERTIORARI
Petitioner Calvin McMillan respectfully petitions
this Court for a writ of certiorari to review the
judgment of the Alabama Court of Criminal Appeals.
OPINIONS BELOW
The order of the Alabama Supreme Court denying
McMillan’s petition for a writ of certiorari is attached
as Appendix A. Pet. App. 1a. The per curiam decision
of the Alabama Court of Criminal Appeals affirming
the dismissal of McMillan’s petition for post-conviction
relief is attached as Appendix B. Pet. App. 3a. The
order of the Circuit Court of Elmore County dismissing
McMillan’s petition is attached as Appendix C. Pet.
App. 19a. The order of the same court sentencing
McMillan to death by lethal injection over the jury’s 84 vote for life is attached as Appendix D. Pet. App. 24a.
JURISDICTION
The Alabama Court of Criminal Appeals affirmed
the dismissal of McMillan’s post-conviction petition in
a decision dated November 9, 2018. Pet. App. 3a. The
Alabama Supreme Court denied certiorari as to all
claims on March 20, 2020. Pet. App. 1a. On March 19,
2020, this Court ordered that the deadline to file any
petition for a writ of certiorari due on or after the date
of the order be extended to 150 days. This Court has
jurisdiction pursuant to 28 U.S.C. 1257(a).
RELEVANT CONSTITUTIONAL PROVISIONS
The Eighth Amendment to the United States
Constitution provides that “Excessive bail shall not be
required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.” U.S. Const. amend.
VIII.

5
INTRODUCTION
Thirty-two people sit on death row in Alabama,
condemned to die by a sentencing practice that every
State in this Nation, including Alabama, has now
abandoned. In each of these thirty-two defendants’
cases, a jury voted for life. And in each of their cases,
a judge overrode the jury’s recommendation to impose
death.
Time has made clear that which was obscured when
this Court issued its decisions upholding the
constitutionality of judicial override in Spaziano v.
Florida, 468 U.S. 447, 464 (1984), overruled on other
grounds by Hurst v. Florida, 136 S. Ct. 616 (2016), and
Harris v. Alabama, 513 U.S. 504 (1995), more than two
decades ago: judicial override violates the Eighth
Amendment’s prohibition on cruel and unusual
punishment. Far from being the product of “properly
guided discretion,” Harris, 513 U.S. at 514, judicial
override suffered from defects that rendered the final
decision to impose death one of “arbitrary whim,” id.
The practice was highly susceptible to electoral
pressure, plagued by racial bias, and disdainful of
jurors who voted for life. The result was a deathsentencing scheme that was neither reliable nor
consistent—one that defied the Eighth Amendment’s
demands that capital sentencing schemes ensure
“measured, consistent application and fairness to the
accused.” Eddings v. Oklahoma, 455 U.S. 104, 111
(1982).
Recognizing this, the four States that adopted the
practice of judicial override gradually abandoned it.
Indiana abolished judicial override in 2002. Florida
and Delaware eliminated the practice in 2016.
Alabama followed suit in 2017. There is now a

6
unanimous, nationwide consensus against death
sentences imposed by judicial override. This is a sure
sign that execution by judicial override does not
comport with the “evolving standards of decency that
mark the progress of a maturing society,” from which
the Eighth Amendment draws its restrictions. Atkins
v. Virginia, 536 U.S. 304, 311-12 (2002) (citation
omitted).
Yet, despite these developments, thirty-five people
sentenced to death through judicial override remain on
death row in this country—thirty-two in Alabama
alone—including Petitioner Calvin McMillan. Absent
this Court’s intervention, their executions will be
irrevocable and will amount to the wholesale
“inter[ring of] a constitutional right forever.” Ramos v.
Louisiana, 140 S. Ct. 1390, 1408 (2020) (plurality
opinion).
This Court should grant review to decide whether
McMillan’s execution—which was authorized against
the judgment of the jury through a practice that the
entire Nation has rejected—violates the Eighth
Amendment.
STATEMENT OF THE CASE
Petitioner Calvin McMillan, who is Black, was a
teenager when he was arrested in 2007 for the
robbery-murder of James Bryan Martin, a white man,
in Elmore County, Alabama. According to the State,
McMillan shot Martin in a Walmart parking lot and
stole his truck.
The trial began on June 22, 2009 with jury selection.
The parties questioned prospective jurors that
afternoon and selected the jury the following morning.
Over the course of questioning, the jurors who were
ultimately selected each affirmed that they could

7
impose the death penalty if the facts and
circumstances of the case warranted it. T.R. 434-35. 1
The guilt phase of the trial commenced on June 23,
2009. At its conclusion, the jury found McMillan guilty
of two counts of capital murder. 2 The penalty phase
began on June 29, 2009. The State presented evidence
establishing a single aggravating circumstance—that
the murder occurred during the course of a robbery.
T.R. 1504. McMillan presented substantial mitigating
evidence concerning his youth, his lack of a significant
prior criminal history, and his traumatic childhood.
The evidence showed that McMillan was raised in a
trailer with little food and no running water. T.R.
1534-36. He was exposed to regular drug use. He
suffered severe physical and sexual violence. Id. When
he was hungry, he drew pictures of sandwiches and ate
the paper. He called his drawings “wish food” because
he wished he had food. T.R. 1545. By the time he
turned eighteen years old, he had been shuffled
through more than twenty-five foster homes and
transitional facilities. T.R. 1604.
“T.R. __” refers to the designated page of the reporter’s
transcript in the trial court, as compiled and certified for
McMillan’s direct appeal. “T.C. __” refers to the designated page
of the clerk’s record in the trial court, as compiled and certified
for McMillan’s direct appeal. “P.C. __” refers to the designated
page of the clerk’s record in the trial court, as compiled and
certified for McMillan’s post-conviction appeal. “C. __” refers to
the designated page of the clerk’s record in the trial court, as
compiled and certified for the second post-conviction appeal, from
which this petition arises.
1

The two counts both pertained to the same crime. The first count
alleged that McMillan caused Martin’s death during the course of
a theft. The second count alleged that McMillan caused Martin’s
death by shooting Martin while Martin was inside a vehicle. T.C.
31.

2

8
Following the presentation of evidence, the parties
delivered closing arguments to the jury. When arguing
for the death penalty, the prosecutor told the jury:
[Y]ou are a jury of 12, a fair cross-section
of this community, you are the conscious
[sic] of this community. You are not an
individual. You’re 12 people who
represent the residents of Elmore
County, Alabama.
T.R. 1732. The jury then recommended, by an 8-4 vote,
that McMillan be sentenced to life imprisonment
without parole. T.R. 1799-1800.
In Alabama today, as in the rest of the country, the
jury’s life vote would have been decisive. That is so
because in 2017, the Alabama Legislature passed a
law ending the practice of judicial override, making it
the last State in the country to abolish the practice. 3
Ala. Code 13A-5-47 (2017). In 2009, however, the trial
judge was permitted to override the jury’s life vote and
impose a death sentence.
The judge in McMillan’s case conducted a separate
sentencing hearing on August 7, 2009. The judge
expressed dismay as to “why the jury was unable to
follow the law to make a recommendation of death in
this case.” Pet. App. 40a. The judge also hypothesized,
“It is highly possible that fewer than eight jurors
initially voted for life without parole and that the
number of those jurors voting for life without parole
3 Indiana abolished judicial override in 2002. Ind. Code 35-50-29(e) (2002). Florida and Delaware each abandoned the practice in
2016. Fla. Stat. 921.141(3)(a)(1) (2016); Rauf v. State, 145 A.3d
430, 433-34 (Del. 2016).

9
only increased as they grew tired of the process . . . .”
Pet. App. 40a. The judge then overrode the jury’s vote
and sentenced McMillan to death. Pet. App. 47a.
McMillan unsuccessfully sought relief on direct
appeal 4 before pursuing post-conviction relief under
Rule 32 of the Alabama Rules of Criminal Procedure.
The same judge who rejected the jury’s vote summarily
dismissed McMillan’s Rule 32 petition. P.C. 14771549. While McMillan’s appeal was pending before the
Alabama Court of Criminal Appeals, 5 the Alabama
Legislature enacted a law prospectively repealing
judicial override in capital cases. Ala. Code 13A-5-47
(2017); Ala. Code 13A-5-47.1 (2017).
Alabama’s repeal of judicial override cemented a
unanimous, nationwide consensus against the
practice. Within six months of the law’s passage,
McMillan filed a petition for post-conviction relief
under Rule 32 of the Alabama Rules of Criminal
Procedure. McMillan argued that the consensus
against the practice rendered his death-by-override
sentence unconstitutional under the Eighth and
Fourteenth Amendments to the United States
Constitution. The state court below rejected
McMillan’s claims, holding that McMillan failed to
show “how this ‘national consensus’ [against judicial
override]
overcomes
the
specific
legislative
The Alabama Court of Criminal Appeals affirmed McMillan’s
conviction and sentence. McMillan v. State, 139 So. 3d 184 (Ala.
Crim. App. 2010). The Alabama Supreme Court denied review, as
did this Court. McMillan v. Alabama, 572 U.S. 1036 (2014).

4

The Alabama Court of Criminal Appeals affirmed the circuit
court’s dismissal on August 11, 2017. McMillan v. State, 258 So.
3d 1154 (Ala. Crim. App. 2017). The Alabama Supreme Court
denied review, as did this Court. McMillan v. Alabama, 139 S. Ct.
265 (2018).

5

10
determination that the law [banning override] is not
retroactive.” Pet. App. 14a. The state court then held
that, because McMillan failed to demonstrate that his
sentence was unconstitutional, he could not overcome
state procedural bars that otherwise would not apply.
Pet. App. 17a. The Alabama Supreme Court denied
review in an unpublished order on March 20, 2020.
Pet. App. 1a.
This petition follows.
REASONS FOR GRANTING THE WRIT
I.

The Execution of a Person Sentenced to
Death by Judicial Override Violates the
Eighth Amendment.

The Eighth Amendment imposes two strict limits on
the death penalty. The first limit reflects a
“heightened need for reliability in the determination
that death is the appropriate punishment in a specific
case.” Caldwell v. Mississippi, 472 U.S. 320, 340 (1985)
(citation and internal quotation marks omitted). Thus,
a sentencing practice that condemns “a capriciously
selected random handful” to die cannot survive
constitutional scrutiny because it imposes death
arbitrarily and is “cruel and unusual in the same way
that being struck by lightning is cruel and unusual.”
Furman v. Georgia, 408 U.S. 238, 309 & n.11 (1972)
(Stewart, J., concurring). The second limit restricts the
death penalty to only those individuals who are “the
most deserving of execution.” Atkins v. Virginia, 536
U.S. 304, 319 (2002). That determination is measured
according to the Nation’s “evolving standards of
decency.” Trop v. Dulles, 356 U.S. 86, 101 (1958).
Where a national consensus against a particular
sentencing practice exists, that practice is
unconstitutional. See, e.g., Atkins, 536 U.S. at 312-17

11
(2002); Roper v. Simmons, 543 U.S. 551, 564-67 (2005);
Kennedy v. Louisiana, 554 U.S. 407, 422-26 (2008);
Graham v. Florida, 560 U.S. 48, 62-67 (2010).
Death sentences imposed via judicial override fail
both of these constitutional tests. As Members of this
Court have observed, “Alabama’s sentencing scheme
has led to curious and potentially arbitrary outcomes,”
where “Alabama judges, who are elected in partisan
proceedings, appear to have succumbed to electoral
pressures” by overriding jury recommendations for life
more frequently during election years. Woodward v.
Alabama, 134 S. Ct. 405, 408-09 (2013) (Sotomayor, J.,
dissenting from denial of certiorari). Alabama
legislators made the same points when they voted to
eliminate judicial override in 2017. State Senator Dick
Brewbaker, who sponsored the legislation, explained
that judges “were very frank that people use it to
pressure them in election years.” Brian Lyman, Senate
Votes to End Judicial Override in Capital Cases,
Montgomery Advertiser (updated Feb. 24, 2017),
https://www.montgomeryadvertiser.com/story/news/p
olitics/southunionstreet/2017/02/23/senate-votes-endjudicial-override-capital-cases/98302650/. A system
that determines who lives and who dies based on the
timing of an election, or in this case, undue speculation
about the jury’s level of exhaustion, cannot satisfy the
heightened standard of reliability that the Eighth
Amendment requires.
At the same time, this case presents as clear a
national consensus as this Court has ever seen.
Legislative action and sentencing rates reflect a
complete rejection of judicial override by every State
in the country. Executing defendants who were
sentenced to death through judicial override does not
comport with this country’s evolving standards of

12
decency and would
penological purpose.

not

serve

any

legitimate

It is therefore appropriate for the Court to
reconsider its decisions in Spaziano and Harris in light
of these developments. It is now apparent that the
penalties imposed by Alabama’s judicial override
statute were not “the product of properly guided
discretion” but instead of “arbitrary whim.” Harris,
513 U.S. at 514. Neither Spaziano nor Harris is
consistent with related decisions by this Court
addressing the reliability of death sentencing schemes
or evolving standards of decency. See Ramos, 140 S.
Ct. at 1405. Furthermore, legal developments have
since called into question the constitutionality of
judicial override. Id. The time has come for this Court
to declare that the execution of a person sentenced to
death by judicial override violates the Eighth
Amendment’s guarantee against cruel and unusual
punishment.
A.

Death Sentences Imposed by
Judicial Override Are Arbitrary,
Unreliable, and Capricious.

This Court has long recognized that “[d]eath, in its
finality, differs more from life imprisonment than a
100-year prison term differs from one of only a year or
two.” Woodson v. North Carolina, 428 U.S. 280, 305
(1976). “Because of that qualitative difference, there is
a corresponding difference in the need for reliability in
the determination that death is the appropriate
punishment in a specific case.” Id.; see also Saffle v.
Parks, 494 U.S. 484, 493 (1990) (acknowledging the
Court’s “longstanding recognition that, above all,
capital sentencing must be reliable, accurate, and
nonarbitrary”). Accordingly, a death sentencing

13
scheme that imposes the death penalty “arbitrarily or
irrationally,” Parker v. Dugger, 498 U.S. 308, 321
(1991), or “capriciously or in a freakish manner,” Gregg
v. Georgia, 428 U.S. 153, 195 (1976) (opinion of
Stewart, Powell, and Stevens, JJ), violates the Eighth
Amendment’s prohibition against cruel and unusual
punishment.
Alabama’s experience with judicial override proved
that the practice was unreliable and problematic.
When Alabama repealed the practice, Senator
Brewbaker noted that judges freely admitted to feeling
pressured by the threat of an upcoming election into
using judicial override. Brian Lyman, Judicial
Override May be Dead After Alabama House Vote,
Montgomery Advertiser (updated Apr. 12, 2017),
https://www.montgomeryadvertiser.com/story/news/p
olitics/southunionstreet/2017/04/04/alabama-housevotes-end-judicial-override/100037694/. Other improper considerations infected judicial override as well. At
least one judge explicitly invoked race as a reason to
reject a jury’s life vote. Woodward, 134 S. Ct. at 409
(Sotomayor, J., dissenting) (quoting a judge who
sentenced a white defendant to death because if he had
not done so, he “would have sentenced three black
people to death and no white people”). Another judge
justified his death vote by proclaiming that the 19year-old Black defendant exhibited a “reptilian
coldness” that belied his youth. C. 417. Another
imposed a death sentence because the “sociological
literature suggests Gypsies intentionally test low on
standard IQ tests.” Woodward, 134 S. Ct. at 409. More
often, judges simply resorted to disparaging the jury
as somehow not up to the task. Indeed, in McMillan’s
case, the judge speculated that it was “highly possible
that fewer than eight jurors initially voted for life

14
without parole and that the number of those jurors
voting for life without parole only increased as they
grew tired of the process.” Pet. App. 40a. 6
Under Alabama’s administration of judicial
override, then, defendants could be—and, in many
instances, were—sentenced to death over a jury
recommendation of life based solely on the “vagaries,”
Saffle, 494 U.S. at 493, of the sentencing judge’s
idiosyncrasies, electoral prospects or biases.
Experience has proven that judicial override cannot
meet the Eighth Amendment’s heightened reliability
requirements.
B.

Death Sentences Imposed by
Judicial Override Deviate from
Existing Standards of Decency.

This Court has long made clear that the Eighth
Amendment “draw[s] its meaning from the evolving
standards of decency that mark the progress of a
maturing society,” Atkins, 536 U.S. at 311-12 (citation
omitted), the “clearest and most reliable objective
evidence” of which “is the legislation enacted by the
country’s legislatures” as well as state practice. Id. at
312 (citation omitted). Applying this test, it is
apparent that executing a death sentence obtained

Evidence also indicates that judicial override increased the risk
of executing innocent people. Some jurors vote for life in capital
cases based on residual doubt as to the defendant’s guilt; as a
result, override targets weak cases. Thus, even though death
sentences imposed through judicial override accounted for 101, or
approximately 24.5%, of all 413 death sentences imposed in
Alabama from 1981 to 2015, they accounted for 50% of all
exonerations from death row in Alabama during the same period.
See Innocence Database, Death Penalty Info. Center,
https://deathpenaltyinfo.org/policy-issues/innocence-database.
6

15
through judicial override does not comport at all with
evolving standards of decency.
Only four States authorized the practice of judicial
override after this Court reinstated the death penalty
in 1976: Indiana, Florida, Delaware, and Alabama.
Over the ensuing years, “the practice of judicial
overrides [became] increasingly rare.” Woodward, 134
S. Ct. at 407. In the 1980s, there were 125 life-to-death
overrides. Id. Since 2000, however, there have been
only 28 overrides, 27 of which were by Alabama judges.
C. 431-33. 7 As the practice declined, Indiana became
the first of the four States to formally repeal judicial
override. Ind. Code 35-50-2-9(e) (2002). Florida and
Delaware followed suit in 2016. Fla. Stat.
921.141(3)(a)(1) (2016); Rauf v. State, 145 A.3d 430,
433-34 (Del. 2016). Alabama voted to eliminate
judicial override just one year later. Ala. Code 13A-547 (2017).
Alabama’s rejection of judicial override cements a
unanimous, nationwide consensus against such death
sentences. At present, twenty-nine States have active
death penalty statutes. No State permits a death
sentence after a jury has voted for life. Only once
before has this Court seen such a complete rejection of
death sentences imposed on a certain group. See Ford
v. Wainwright, 477 U.S. 399, 408 (1986) (holding that
the Eighth Amendment bars the execution of the
insane, in part because “no State in the Union permits
the execution of the insane”). And in that case, this
Court felt “compelled to conclude that the Eighth
Amendment prohibits a State from carrying out a
There was only one override between Justice Sotomayor’s
Woodward dissent in 2013 and Alabama’s legislative repeal in
2017.
7

16
sentence of death upon a prisoner who is insane”
because “the intuition that such an execution simply
offends humanity [was] evidently shared across this
Nation.” Id. at 409-10. This Court does not require
unanimous agreement among all States to hold that a
practice violates the Eighth Amendment, see, e.g.,
Atkins, 536 U.S. at 313-15 (twenty states authorized
the death penalty for people with intellectually
disability); Roper, 543 U.S. at 564 (twenty states
authorized the death penalty for juveniles); Kennedy,
554 U.S. at 423 (six states authorized the death
penalty for child rape), but the unanimous nature of
the rejection here provides clear evidence that such
sentences are inconsistent with the Eighth
Amendment’s prohibition of cruel and unusual
punishment.
As this Court explained in Graham v. Florida, 560
U.S. 48 (2010), the Eighth Amendment’s focus on
evolving standards is intended to capture the fact that
“the standard of extreme cruelty is not merely
descriptive, but necessarily embodies a moral
judgment.” Id. at 58 (quoting Kennedy, 554 U.S. at
419) (alteration adopted, internal quotation marks
omitted, and emphasis added). Alabama’s decision to
eliminate judicial override was exactly that: a moral
decision—one that determined it was no longer proper
to sentence an individual to death over a jury vote for
life. See Lyman, Senate Votes to End Judicial Override
in Capital Cases (statement of Sen. Brewbaker)
(calling judicial override a “moral issue”). Because the
states unanimously agree that sentencing a person to
death through judicial override is improper,
McMillan’s death sentence violates the Eighth
Amendment and should be vacated.

17
C.

The Execution of a Person Who Was
Sentenced to Death by Judicial
Override Serves No Legitimate
Penological Purpose.

This Court has recognized that the death penalty is
unconstitutional when its imposition “does not fulfill
the two distinct social purposes served by the death
penalty: retribution and deterrence of capital crimes.”
Kennedy, 554 U.S. at 441. Death sentences imposed by
override fail to serve either purpose.
It serves no deterrent purpose to carry out a
sentence that the law no longer authorizes. Moreover,
the legislature’s considered determination that
judicial override was unnecessary is significant
evidence that whatever deterrent value the practice
may have had, it was substantially outweighed by the
arbitrariness with which the death penalty was
imposed. Roper, 543 U.S. at 571 (“In general we leave
to legislatures the assessment of the efficacy of various
criminal penalty schemes.”).
The execution of a sentence imposed by judicial
override also does not serve any retributive purpose.
In evaluating retribution, the Court has asked
whether the death sentence “has the potential . . . to
allow the community as a whole . . . to affirm its own
judgment that the culpability of the prisoner is so
serious that the ultimate penalty must be sought and
imposed.” Panetti v. Quarterman, 551 U.S. 930, 958
(2007). Far from respecting the judgment of the
community, judicial override rejects it. This Court has
observed that a jury choosing between “life
imprisonment and capital punishment can do little
more—and must do nothing less—than express the
conscience of the community on the ultimate question

18
of life or death.” Witherspoon v. Illinois, 391 U.S. 510,
519 (1968). The community members entrusted to
convey the conscience of the community in this case
concluded that life without parole was the appropriate
punishment. It serves no retributive purpose to carry
out a death sentence that they explicitly rejected.
D.

This Court Should Revisit Spaziano
and Harris.

On two separate occasions, this Court has upheld
judicial override against constitutional challenges. See
Harris, 513 U.S. at 515; Spaziano, 468 U.S. at 466.
Both times, this Court emphasized that it saw
“nothing that suggests that the application of the juryoverride procedure has resulted in arbitrary or
discriminatory application of the death penalty, either
in general or in this particular case.” Spaziano, 468
U.S. at 466; see Harris, 513 U.S. at 514 (similar). In
the decades since, however, legislative action and
studies of judicial override have introduced
substantial evidence that the practice was, in fact,
arbitrary and that executions by judicial override do
not comport with contemporary standards of decency.
Because both Harris and Spaziano were decided prior
to these events, their conclusions regarding the
constitutionality of judicial override should be
revisited.
At the outset, “stare decisis has never been treated
as an inexorable command,” much less a vehicle for
“methodically ignoring what everyone knows to be
true.” Ramos, 140 S. Ct. at 1405 (internal quotation
marks omitted). This Court has therefore revisited the
soundness of prior decisions when a number of factors
counsel in favor of doing so. These factors include “the
quality of the [prior] decision’s reasoning; its

19
consistency with related decisions; legal developments
since the decision; and reliance on the decision.” Id.
(quoting Franchise Tax Bd. of Cal. v. Hyatt, 139 S. Ct.
1485, 1499 (2019)). Much like in Ramos, each of these
factors supports overruling Harris and Spaziano.
First, both Harris and Spaziano relied on two
premises to uphold the constitutionality of judicial
override: (1) there was no evidence that application of
judicial override led to arbitrary death sentences; and
(2) the fact that a majority of jurisdictions did not
adopt judicial override did not “establish that
contemporary standards of decency are offended by the
jury override.” Spaziano, 468 U.S. at 464, 466; Harris,
513 U.S. at 510, 514. Subsequent developments have
gravely undermined these premises in ways that
substantially diminish the quality of both opinions. As
Justice Sotomayor observed in her dissent in
Woodward, the empirical evidence suggests that
“Alabama judges’ distinctive proclivity for imposing
death sentences” through judicial override flows from
their desire to be seen as tough on crime for reelection
purposes. Woodward, 134 S. Ct. at 408. Moreover, the
Alabama Legislature cited their concerns that such
arbitrary considerations had infected the judicial
override process as a reason to repeal override.
Beyond that, it is no longer the case that only a
majority of States have adopted a different practice.
No State in this country now stands by judicial
override—a remarkable display of unanimity seen
only once before, with prohibitions on executing the
insane. At the time this Court decided Spaziano, it
faced a different landscape and a very different
question: namely, whether the Eighth Amendment is
violated “every time a State reaches a conclusion
different from a majority of its sisters over how best to

20
administer its criminal laws.” 468 U.S. at 464. This
Court understandably did not want to intervene while
States were still experimenting with their capital
sentencing schemes. But every state has now rejected
override. Thus, the question is whether the Eighth
Amendment’s prohibition on cruel and unusual
punishment is violated when every State in this
country has concluded that judicial override is
improper.
Second, Spaziano and Harris “sit[] uneasily,”
Ramos, 140 S. Ct. at 1405, with over half a century of
decisions examining the propriety of various death
sentencing practices under the Eighth Amendment.
Since this Court’s adoption of the “evolving standards
of decency” test in 1958, it has not hesitated to overrule
prior decisions under the Eighth Amendment when a
new consensus against a punishment has arisen. See,
e.g., Atkins, 536 U.S. at 314 (overruling Penry v.
Lynaugh, 492 U.S. 302 (1989), because “[m]uch ha[d]
changed since” the Court decided Penry); Roper, 543
U.S. at 565 (overruling Stanford v. Kentucky, 492 U.S.
361 (1989), because “the change from Stanford to this
case [was] significant”). And it has cited this same
standard to strike down death sentences when they do
not align with national consensus, even if the States
are not in unanimous agreement. See, e.g., Kennedy,
554 U.S. at 425-26; Enmund v. Florida, 458 U.S. 782,
789-94, 797 (1982). Spaziano and Harris thus stand
alone in sanctioning the execution of death sentences
obtained through a sentencing practice every State in
this country has rejected.
Neither has this Court hesitated to invalidate
sentencing schemes that produced unreliable and
arbitrary death sentences. In Furman, this Court
vacated three death sentences in part because they

21
were the product of a standard-less process that
condemned people to live or die on the whims of the
judge or jury. 408 U.S. at 239-40 (per curiam); 408 U.S.
at 253 (Douglas, J., concurring); 408 U.S. at 305
(Brennan, J., concurring); 408 U.S. at 309-10 (Stewart,
J., concurring). And in Woodson, this Court struck
down North Carolina’s mandatory death sentencing
scheme because it did not “fulfill Furman’s basic
requirement [to] replac[e] arbitrary and wanton”
death sentencing practices. 428 U.S. at 303. Spaziano
and Harris are no longer consistent with these
decisions in light of the fact that Alabama itself has
acknowledged that the practice of judicial override
produced unreliable death sentences.
Third, Alabama has a markedly lower reliance
interest in carrying out executions obtained through a
practice it has since disavowed. Overturning Spaziano
and Harris will not “provoke a crushing tsunami of
follow-on litigation,” Ramos, 140 S. Ct. at 1406
(internal quotation marks omitted), nor will it
necessitate further action by the State in the same way
retrials do. There are thirty-five people total in this
country serving a death sentence despite a jury vote
for life imprisonment—thirty-two of whom are in
Alabama. Striking down judicial override would
simply mean resentencing each of the defendants to
life in prison without parole, and thereby vindicate the
sentencing jury’s judgment about the appropriate
moral response to the defendant and his crime. The
State’s diminished reliance interests thus pale in
comparison to the interests of the American people in
preserving “our constitutionally promised liberties,”
and the interests of the thirty-two people on Alabama’s
death row to have their Eighth Amendment rights
vindicated. Id. at 1408 (plurality opinion); see also

22
McGirt v. Oklahoma, 140 S. Ct. 2452, 2479-2480
(2020) (dismissing the cost of potentially reprosecuting “[t]housands” of state-court convictions
because “the magnitude of a legal wrong is no reason
to perpetuate it”).
“In the final accounting,” Ramos, 140 S. Ct. at 1408,
the factors strongly favor revisiting Spaziano and
Harris. Both decisions couched their holdings in
premises that have washed away with the tides of
time. Justice is not done when the Court averts its
gaze from that which is apparent to everyone. Id.
Judicial override was not a reliable method of
imposing death sentences, and it defies contemporary
standards of decency. This Court should revisit the
constitutionality of executing people sentenced to
death by judicial override.
II.

This Case Is an Ideal Vehicle for
Addressing the Constitutionality of
Judicial Override.

Substantively and procedurally, this is an excellent
case for addressing the constitutionality of judicial
override. Substantively, the case demonstrates the
flaws of judicial override. Procedurally, the case
presents the issue squarely because the state court’s
decision turns on the conclusion that judicial override
is constitutional under the Eighth Amendment.
A.

The Case Exemplifies the Problems
with Judicial Override.

McMillan’s case demonstrates the core problem
with judicial override: its inability to reliably
determine who is “the most deserving of execution.”
Atkins, 536 U.S. at 319. At sentencing, the State
presented evidence proving only one aggravating
circumstance—that the murder was committed during

23
the course of a robbery. On the other side of the ledger,
McMillan presented evidence of his youth at the time
of the crime (eighteen years old), his lack of a
significant prior criminal history, and his traumatic
upbringing. Pet. App. 34a-38a. As the trial judge
explained in his sentencing order:
McMillan submitted [evidence] . . . that
he was raised in extreme poverty; that he
was abandoned by his mother; that he
was physically abused as a child; that he
was raped as a child; that he was a
witness to his mother’s and sister’s
abuse; that he was raised in the home of
an alcoholic/drug addict; that he did not
get the treatment he needed; that he had
no positive male role models; that he
suffered
from
psychological
and
emotional difficulties; and that his
intellectual functioning was in the
borderline range.
Pet. App. 34a-35a. Based on this evidence, the jury
correctly
determined
that
the
aggravating
circumstance did not outweigh the mitigating
circumstances. See generally Wiggins v. Smith, 539
U.S. 510 (2003). But the trial judge rejected that
finding, castigating the jurors for being “unable to
follow the law” and speculating about the legitimacy of
their vote. Pet. App. 40a.
The jury in this case was correct. McMillan is not
one of the rare defendants who is among “the most
deserving of execution.” Atkins, 536 U.S. at 319.

24
B.

The Case Is Well Suited for
Certiorari Review Because the State
Court’s Decision Turned on the
Constitutional Question Presented.

This case presents the Court with an appropriate
procedural vehicle for resolving the constitutional
question presented. The state court held that
McMillan failed to show “how this ‘national consensus’
[against judicial override] overcomes the specific
legislative determination that the law [banning
override] is not retroactive.” Pet. App. 14a. That is the
constitutional question presented in this case—
whether the unanimous national consensus against
judicial override and acknowledgement of the
practice’s unreliability justify a constitutional ruling
that denies Alabama the authority to continue to
execute people whose juries voted for life before the
practice was repealed.
It is of no moment that the state appellate court
purported to affirm the trial court’s dismissal of
McMillan’s post-conviction petition on procedural
grounds, because that decision was necessarily based
on the court’s substantive determination that
McMillan’s constitutional rights had not been violated.
As this Court has made clear on numerous occasions,
“when resolution of the state procedural law question
depends on a federal constitutional ruling, the statelaw prong of the court’s holding is not independent of
federal law, and our jurisdiction is not precluded.” Ake
v. Oklahoma, 470 U.S. 68, 75 (1985) (citing Herb v.
Pitcairn, 324 U.S. 117, 126 (1945)); see also Three
Affiliated Tribes of Fort Berthold Reservation v. Wold
Engineering, P.C., 467 U.S. 138, 152 (1984) (“[T]his
Court retains a role when a state court’s interpretation
of state law has been influenced by an accompanying

25
interpretation of federal law.”); Foster v. Chatman, 136
S. Ct. 1737, 1746 (2016) (same). Here, the state court
relied on two separate procedural rules, but its
application of both rules depended on an antecedent
ruling on federal law.
First, the state court applied Rule 32.2(b), which
authorizes successive petitions where “good cause
exists why the new ground or grounds were not known
or could not have been ascertained through reasonable
diligence when the first petition was heard, and that
failure to entertain the petition will result in a
miscarriage of justice.” Ala. R. Crim. P. 32.2(b). The
state court acknowledged that McMillan based his
claim on new developments—Alabama’s repeal of
judicial override—thereby satisfying the first prong of
the test. But the court then held that McMillan failed
to demonstrate a “miscarriage of justice” because he
did not show “how this ‘national consensus’ overcomes
the specific legislative determination that the law is
not retroactive.” Pet. App. 14a.
The state court’s “miscarriage of justice” ruling
reflected its decision that the new national consensus
did not create an Eighth Amendment violation. Stated
another way, if the Court found that McMillan’s death
sentence violated the Eighth Amendment, the
procedural bar would not apply. See Click v. State, 215
So. 3d 1189, 1194-95 (Ala. Crim. App. 2016). Thus, the
application of Rule 32.2(b) was “influenced by an
accompanying interpretation of federal law,” Three
Affiliated Tribes, 467 U.S. at 152, and “depend[ed] on
[the] federal constitutional ruling,” Ake, 470 U.S. at 75.
Second, the state court determined that McMillan’s
petition was time-barred under Rule 32.2(c), which
requires a petitioner to bring a new claim within six

26
months of “the discovery of the newly discovered
material facts.” Ala. R. Crim. P. 32.2(c) (emphasis
added). But the application of this bar similarly rested
on an antecedent ruling of federal law. The state court
recognized that McMillan filed his petition within six
months of Alabama’s law prohibiting judicial override.
Had the court concluded that the unanimous national
consensus against judicial override was a new fact
rendering McMillan’s sentence unconstitutional,
McMillan would have been entitled to relief. However,
the court reached the opposite conclusion, holding that
McMillan failed to show “how this ‘national consensus’
overcomes the specific legislative determination that
the law is not retroactive.” Pet. App. 14a.
The decisions of the same state court in other cases
make clear that the procedural bars of Rule 32 would
not apply here if judicial override violates the Eighth
Amendment. In Click, for instance, the petitioner was
mandatorily sentenced to life without parole for a
murder he committed when he was seventeen years
old. 215 So.3d at 1191. He appealed unsuccessfully and
was denied post-conviction relief. Id. After this Court
decided Miller v. Alabama, 567 U.S. 460 (2012), the
petitioner filed a successive Rule 32 petition alleging
that his sentence was unconstitutional. Click, 215 So.
3d at 1192. The circuit court dismissed the petition,
but the Court of Criminal Appeals reversed. Id. 8
Recognizing that Alabama’s collateral review
procedures are open to Eighth Amendment claims, the
court held that “Click’s petition conformed with the
The Court of Criminal Appeals had initially affirmed the circuit
court’s dismissal, but this Court granted Click’s petition, vacated
the judgment, and remanded for reconsideration in light of
Montgomery v. Louisiana, 136 S. Ct. 718 (2016). Click v.
Alabama, 136 S. Ct. 1363 (2016).
8

27
requirements of Rule 32.” Id. at 1194-95. Thus, the
procedural bars that were enforced here apply only
when the state court fails to recognize the
constitutional violation. The procedural rules are
therefore directly interwoven with the federal issue.
Significantly, the State of Alabama has argued to
this Court that if a death-sentenced individual wishes
to challenge his sentence in light of the repeal of
judicial override, then this is the appropriate
procedural mechanism to do so. In a separate case in
which the petitioner sought to challenge his override
sentence through a petition filed directly in the
Alabama Supreme Court, the State represented the
following to this Court:
Alabama has a prescribed method for
seeking postconviction relief from an
allegedly unconstitutional sentence: a
petition properly filed in the circuit court
pursuant to Rule 32 of the Alabama
Rules of Criminal Procedure. Ala. R.
Crim. P. 32.1(a), (c), 32.4. If [the
petitioner] truly believed that the Act’s
prospective procedural change rendered
his death sentence invalid, then he could
have filed a Rule 32 petition within six
months of the Act’s effective date. See
Ala. R. Crim. P. 32.2(c).
State’s Brief in Opposition to Certiorari, at 7, Madison
v. Alabama, No. 17-7535 (U.S. Jan. 25, 2018). That is
precisely the course McMillan followed. Within six
months of the new law, he filed a Rule 32 petition
alleging that his sentence violates the Eighth
Amendment. This case thus presents one of the last
and best opportunities for this Court to decide whether

28
judicial override violates the Eighth Amendment’s
prohibition against cruel and unusual punishment.
The Court’s answer to that question will determine the
fates of thirty-five people on death row, each of whom
the community voted should live but whom a judge
nonetheless condemned to die.
CONCLUSION
For the foregoing reasons, this Court should grant
certiorari to decide whether the execution of a person
sentenced to death by judicial override violates the
Eighth Amendment.
Respectfully submitted,
MICHAEL ADMIRAND
Counsel of Record
PATRICK MULVANEY
KATHERINE MOSS
SOUTHERN CENTER FOR
HUMAN RIGHTS
60 Walton St. NW
Atlanta, GA 30303
(404) 688-1202
madmirand@schr.org

August 17, 2020

DONALD B. VERRILLI, JR.
XIAONAN APRIL HU
MUNGER, TOLLES & OLSON LLP
1155 F Street NW, 7th Floor
Washington, DC 20004
(202) 220-1107
Donald.Verrilli@mto.com

APPENDIX

1a
APPENDIX A
IN THE SUPREME COURT OF ALABAMA
[SEAL]
March 20, 2020
1180438
Ex parte Calvin McMillan. PETITION FOR WRIT OF
CERTIORARI TO THE COURT OF CRIMINAL
APPEALS (In re: Calvin McMillan v. State of
Alabama) (Elmore Circuit Court: CC08-476.61;
Criminal Appeals: CR-17-0718).
CERTIFICATE OF JUDGMENT
WHEREAS, the petition for writ of certiorari in the
above referenced cause has been duly submitted and
considered by the Supreme Court of Alabama and the
judgment indicated below was entered in this cause on
March 20, 2020:
Writ Denied. No Opinion. Mitchell, J. - Parker,
C.J., and Bolin, Shaw, Bryan, Sellers, Mendheim, and
Stewart, JJ., concur. Wise, J., recuses herself.
NOW, THEREFORE, pursuant to Rule 41, Ala. R.
App. P., IT IS HEREBY ORDERED that this Court’s
judgment in this cause is certified on this date. IT IS
FURTHER ORDERED that, unless otherwise ordered
by this Court or agreed upon by the parties, the costs
of this cause are hereby taxed as provided by Rule 35,
Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme
Court of Alabama, do hereby certify that the
foregoing is a full, true, and correct copy of the
instrument(s) herewith set out as same
appear(s) of record in said Court.

2a

Witness my hand this 20th day of March, 2020.
[/s/ Julia Jordan Weller]
Clerk, Supreme Court of Alabama

3a
APPENDIX B
REL: November 9, 2018
This unpublished memorandum should not be cited as
precedent. See Rule 54, Ala. R. App. P. Rule 54(d),
states, in part, that this memorandum “shall have no
precedential value and shall not be cited in arguments
or briefs and shall not be used by any court within this
state, except for the purpose of establishing the
application of the doctrine of law of the case, res
judicata, collateral estoppel, double jeopardy, or
procedural bar.”
ALABAMA COURT OF CRIMINAL APPEALS

CR-17-0718
Calvin McMillan
v.
State of Alabama
Appeal from Elmore Circuit Court
(CC-08-476.61)
Before MARY B. WINDOM Presiding Judge,
SAMUEL HENRY WELCH, J. ELIZABETH
KELLUM, J. MICHAEL JOINER, Judges
MEMORANDUM
PER CURIAM.

4a
Calvin McMillan was convicted of murder made
capital because it was committed during the course of
a first-degree robbery and because the victim was shot
while inside a vehicle. See § 13A-5-40 (a)(2) and (a)(17),
Ala. Code 1975. They jury, by a vote of 8-4,
recommended that McMillan be sentenced to life
imprisonment without the possibility of parole.
However, the trial court overrode the jury’s
recommendation and sentenced McMillan to death. 1
This Court affirmed McMillan’s convictions and
sentence in McMillan v. State, 139 So. 3d 184 (Ala.
Crim. App. 2010), cert. denied, 572 U.S. 1036 (2014).
In August of 2014, McMillan filed a timely petition for
postconviction relief pursuant to Rule 32, Ala. R. Crim.
P. This Court affirmed the circuit court’s summary
dismissal of that petition in McMillan v. State, [Ms.
CR-14-0935, August 11, 2017] __ So. 3d __ (Ala. Crim.
App. 2017). The Alabama Supreme Court denied
certiorari on February 23, 2018, see Ex parte
McMillan, [Ms. 1170215, February 23, 2018] __ So. 3d
__ (Ala. 2018). McMillan’s petition for a writ of
certiorari in the United States Supreme Court is
currently pending.
On October 10, 2017, McMillan filed this, his second
petition for postconviction relief pursuant to Rule 32,
Ala. R. Crim. P. In his petition, McMillan contended
that his death sentence was unconstitutional because,
he said, it violated the Fifth, Sixth, Eight, and
Fourteenth Amendments to the United States
Constitution. In support of his argument, McMillan
points to § 13A-5-47, Ala. Code 1975, which effectively
ended the practice of judicial override in death­
The facts underlying McMillan’s conviction and sentence are not
relevant to this appeal.

1

5a
penalty cases. The Act was signed into law on April 11,
2017, nearly eight years after McMillan was convicted
and sentenced to death. See Act 2017-131. Section
13A-5-47(a), Ala. Code 1975, provides, in pertinent
part:
“After the sentence hearing has been
conducted, and after the jury has
returned a verdict, or after such a verdict
has been waived as provided in Section
13A-5-46(a) or Section 13A-5-46(g), the
trial court shall impose sentence. Where
the jury has returned a verdict of death,
the court shall sentence the defendant to
death. Where a sentence of death is not
returned by the jury, the court shall
sentence
the
defendant
to
life
imprisonment without parole.”
McMillan asserted that he was entitled to relief under
Rule 32.1(a), Ala. R. Crim. P., because, he said, his
death sentence violated both the Alabama and United
States Constitutions in light of the passage of § 13A-547, Ala. Code 1975. He also contended that his
sentence exceeded the maximum authorized by law,
see Rule 32.1(c), Ala. R. Crim. P., and that the abovementioned statute constituted newly­discovered
evidence pursuant to Rule 32.1(e), Ala. R. Crim. P.
In its response and motion to dismiss, the State
noted that § 13A-5-47.1, Ala. Code 1975, which was
signed into law at the same time as§ 13A-5-47,
provides: “Sections 13A-5-45, 13A-5-46, and 13A-5-47
shall apply to any defendant who is charged with
capital murder after April 11, 2017, and shall not
apply retroactively to any defendant who has
previously been convicted of capital murder and

6a
sentenced to death prior to April 11, 2017.” As noted,
McMillan was convicted and sentenced in 2009.
According to the State, McMillan’s petition was
precluded by Rule 32.2(b), Ala. R. Crim. P., because it
was a successive petition, and that it was precluded by
Rule 32.2(c), Ala. R. Crim. P., because it was filed
outside of the one year statute of limitations. The State
also asserted that McMillan’s claim did not constitute
newly-discovered evidence under Rule 32.1(e), Ala. R.
Crim. P.
Initially, “[w]hen reviewing a circuit court’s denial
of a Rule 32 petition, this Court applies an abuse-ofdiscretion standard.” Shouldis v. State, 38 So. 3d 753,
761 (Ala. Crim. App. 2008) (quoting Whitman v. State,
903 So. 2d 152, 154 (Ala. Crim. App. 2004), citing in
turn McGahee v. State, 885 So. 2d 191 (Ala. Crim. App.
2003)). However, “when the facts are undisputed and
an appellate court is presented with pure questions of
law, that court’s review in a Rule 32 proceeding is de
novo.” Ex parte White, 792 So. 2d 1097, 1098 (Ala.
2001)(citing State v. Hill, 690 So. 2d 1201, 1203 (Ala.
1996)). Further, “[t]he plain error rule does not apply
to Rule 32 proceedings, even if the case involves the
death sentence.” Burgess v. State, 962 So. 2d 272, 277
(Ala. Crim. App. 2005) (internal citations and
quotations omitted). Finally, “[t]he procedural bars of
Rule 32[.2, Ala. R.Crim. P.,] apply with equal force to
all cases, including those in which the death penalty
has been imposed.” Id. (internal citations and
quotations omitted). The facts underlying the issue
raised in McMillan’s petition are not in dispute.
Accordingly, this Court will apply a de novo standard
of review.

7a
I.
On appeal, McMillan first argues that the circuit
court erred by summarily dismissing his petition. The
record reveals that the court initially set the matter
for an evidentiary hearing but, after receiving the
State’s response, cancelled the hearing and summarily
dismissed the petition. McMillan points to the fact that
the trial court entered its summary dismissal two days
after the State filed its response thus depriving him of
an opportunity to reply and disprove the State’s
asserted grounds of preclusion. He also asserts that
the circuit court’s order was not the result of its
independent judgment because, he said, the court’s
order was a “wholesale adoption of the State’s
proposed order . . . .” (McMillan’s brief, at 13).
As to McMillan’s argument regarding his
opportunity to respond the State’s answer, this Court
has held:
“Rule 32.6(a), Ala. R. Crim. P., provides
that “[a] proceeding under this rule is
commenced by filing a petition, verified
by the petitioner or the petitioner’s
attorney, with the clerk of the court.’ Rule
32.6(b), Ala. R. Crim. P., requires a
petitioner to disclose the full factual basis
establishing entitlement to relief,
including any facts necessary to
overcome the procedural bars contained
in Rule 32.2, Ala. R. Crim. P. See Ex parte
Ward, 46 So. 3d 888, 897 (Ala. 2007)
(‘[W]hen a Rule 32 petition is time-barred
on its face, the petition must establish
entitlement to the remedy afforded by the
doctrine of equitable tolling. A petition

8a
that does not assert equitable tolling, or
that asserts it but fails to state any
principle of law or any fact that would
entitle the petitioner to the equitable
tolling of the applicable limitations
provision, may be summarily dismissed. .
. .’). Rule 32.7(a), Ala. R. Crim. P., allows
the State 30 days to file a response to the
Rule 32 petition. There is, however, no
provision in Rule 32 for the petitioner –
who, pursuant to Rule 32.6(b), Ala. R.
Crim. P., should have included the full
factual basis for his request for relief and
each of his legal assertions in his Rule 32
petition – to file a reply to the State’s
response.
“Furthermore, there is no provision in
Rule 32 that requires the circuit court to
await a response from the State before
dismissing a Rule 32 petition. Instead, as
Alabama courts have repeatedly held,
‘Rule 32.7(d), Ala. R. Crim. P., allows the
trial court to summarily dismiss a Rule
32 petition that, on its face, is precluded
or fails to state a claim, and [the Alabama
Supreme Court has] held that the trial
court may properly summarily dismiss
such a petition without waiting for a
response to the petition from the State.’
Ex parte Ward, 46 So. 3d at 897 (citing
Bishop v. State, 608 So. 2d 345, 347-48
(Ala.1992) (‘Where a simple reading of a
petition for post-conviction relief shows
that, assuming every allegation of the
petition to be true, it is obviously without

9a
merit or is precluded, the circuit court
[may] summarily dismiss that petition
without requiring a response from the
district attorney.’)).
“Recognizing these principles, this Court,
in Beckworth v. State, [Ms. CR-07-0051,
May 1, 2009] __ So. 3d __, __ (Ala. Crim.
App. 2009), rejected Jenkins’s argument.
Three days after the State filed its
response to Beckworth’s Rule 32 petition
and without allowing Beckworth to file a
reply, the circuit court summarily
dismissed Beckworth’s petition. Id. On
appeal, Beckworth argued, among other
things, ‘that the trial court abused its
discretion when it dismissed the petition
only three days after the State filed its
answer....’ Id. This Court disagreed and
held that because ‘the trial court may
properly summarily dismiss a Rule 32
petition even before it receives from the
State a response to the petition ...[,] [n]o
error occurred as a result of the trial
court’s entry of the judgment within days
of its receipt of the State’s response.’ Id.
See Bishop v. State, 608 So.2d at 347-48
(holding that where a simple reading of a
petition for postconviction relief shows
that, assuming every allegation of the
petition to be true, it is obviously without
merit or is precluded, the circuit court
may summarily dismiss that petition
without requiring a response from the
district attorney). Similarly, this Court
holds that the circuit court did not err in

10a
dismissing Jenkins’s petition prior to
receiving a reply to the State’s answer
and motion to dismiss.”
Jenkins v. State, 105 So. 3d 1234, 1244-45 (Ala. Crim.
App. 2011). Because McMillan was not entitled to file
a reply to the State’s response, he was not deprived of
his due-process rights. Additionally, as will be
discussed below, McMillan’s petition was time-barred
on its face and was successive. Thus, the trial court
was not even required to await the State’s response
before summarily dismissing the petition.
Additionally, McMillan is not entitled to relief based
on his assertion that the circuit court adopted the
State’s proposed order. The appellant in Jenkins,
supra, made the same argument. In denying relief,
this Court held:
“In Ex parte Ingram, 51 So. 3d 1119, 1122
(Ala. 2010), the Alabama Supreme Court
reaffirmed ‘the general rule ... that,
where a trial court does in fact adopt the
[prevailing party’s] proposed order as its
own, deference is owed to that order in
the same measure as any other order of
the trial court.’ The Court went on to
state that “[i]n this unusual case, [it
could not] conclude that the above-stated
“general rule” was applicable’ because
the adopted order contained indisputably
false statements. Id. at 1123-24.
Specifically, the judge who signed the
State’s proposed order stated that he had
presided over Ingram’s trial and had
personal knowledge of the trial
proceedings when, in fact, another judge

11a
had presided over the trial. Id. The
Supreme Court then held that ‘the
patently erroneous nature of the
statements regarding the trial judge’s
“personal knowledge” and observations of
Ingram’s
capital-murder
trial
undermines any confidence that the trial
court’s findings of fact and conclusions of
law are the product of the trial judge’s
independent judgment and that the ...
order
reflects
the
findings
and
conclusions of that judge.’ Id. at 1125
(emphasis in the original). Because the
order established that the conclusions
were not those of the judge, the Supreme
Court reversed the dismissal of Ingram’s
Rule 32 petition. Id.
“Later, in Ex parte Scott, [Ms. 1091275,
March 18, 2011] ___ So. 3d ___, ___ (Ala.
2011), the Alabama Supreme Court held
that the circuit court erred in adopting
verbatim as its order the State’s answer
to a Rule 32 petition. After reaffirming its
earlier decision in Ex parte Ingram, the
Court held that it constitutes error for a
circuit court to adopt the prevailing
party’s answer because an answer ‘is
infected with ... adversarial zeal [and]
because an answer is a pleading that
never is prepared with the pretense of
impartiality.’ Id. Because a party’s
answer ‘is infected with ... adversarial
zeal,’ the “verbatim adoption of the
State’s answer to [a] Rule 32 petition as
its order, by its nature, violates [the

12a
Court’s] holding in Ex parte Ingram [that
the circuit court’s order must] reflect the
independent and impartial findings and
conclusions of the trial court. Id.”
105 So. 3d at 1241.
In his brief on appeal, McMillan does not identify
any specific examples of how the circuit court’s order
was improper. Rather, he makes the general assertion
that the court’s adoption of the State’s proposed order
“undermines the integrity of the proceedings.”
(McMillan’s brief, at 13). Additionally, this Court has
reviewed the circuit court’s order and does not find any
of the types of errors described in Ingram and Scott.
Accordingly, McMillan is not entitled to any relief on
this issue.
II.
Next, McMillan argues that the circuit court
erroneously determined that his claim was precluded.
According to McMillan, his claim was properly raised
under Rules 32.1(a), (c), and (e), Ala. R. Crim. P., and
his petition was not precluded by Rule 32.2(b), Ala. R.
Crim. P., or Rule 32.2(c), Ala. R. Crim. P. McMillan
contends that his claim is based on new evidence.
Rule 32.2(b), Ala. R. Crim. P., provides:
“If a petitioner has previously that
challenges any judgment, petitions by
that petitioner judgment arising out of
that filed a petition all subsequent
challenging any same trial or guilty-plea
proceeding shall be treated as successive
petitions under this rule. The court shall
not grant relief on a successive petition
on the same or similar grounds on behalf

13a
of the same petitioner. A successive
petition on different grounds shall be
denied unless (1) the petitioner is entitled
to relief on the ground that the court was
without jurisdiction to render a judgment
or to impose sentence or (2) the petitioner
shows both that good cause exists why
the new ground or grounds were not
known or could not have been ascertained
through reasonable diligence when the
first petition was heard, and that failure
to entertain the petition will result in a
miscarriage of justice.”
McMillan concedes that the present petition is
successive but maintains “... both that good cause
exists why the new ground or grounds were not known
or could not have been ascertained through reasonable
diligence when the first petition was heard, and that
failure to entertain the petition will result in a
miscarriage of justice.” (McMillan’s brief, at 17)
quoting Rule 32.2(b), Ala. R. Crim. P.
As noted above, the statute that McMillan relies on
was not signed into law until 2017. McMillan filed his
first Rule 32 petition in 2014, thus, he could not have
known about the law or ascertained that it would be
passed through the exercise of reasonable diligence.
However, to be entitled to relief in a successive
petition, McMillan must also show that a failure to
entertain the petition will result in a miscarriage of
justice. When the legislature passed § 13A-5-47, Ala.
Code 1975, it simultaneously passed § 13A-5-47.1,
which expressly provided that the law was not
retroactive and would not apply to people convicted
and sentenced prior to April 11, 2017. Because the
legislature specifically chose to make the law

14a
prospective only, it intentionally excluded McMillan
and other similarly situated convicts from its purview.
McMillan contends that these new developments in
Alabama law as well as the laws of other states entitle
him to relief. However, he does not explain how this
“national consensus” overcomes the specific legislative
determination that the law is not retroactive.
(McMillan’s brief, at 19).
Accordingly, the circuit court’s failure to address
McMillan’s petition at an evidentiary hearing did not
constitute a miscarriage of justice. McMillan’s petition
was successive and, therefore, summary dismissal was
appropriate. See Rule 32.7(d), Ala. R. Crim. P. (A
circuit court may summarily dismiss a Rule 32 petition
“[i]f the court determines that the petition is not
sufficiently specific, or is precluded, or fails to state a
claim, or that no material issue of fact or law exists
which would entitle the petitioner to relief under this
rule and that no purpose would be served by any
further proceedings. . . .”).
McMillan also claims that his petition was not time­
barred under Rule 32.2(c), Ala. R. Crim. P., because,
he says, the petition was filed within six months of the
passage of § 13A-5-47, and was the appropriate way to
argue for retroactive application of the override repeal.
(McMillan’s brief, at 21.) However, McMillan again
appears to ignore the fact that § 13A-5-47.1 specifically
states that the judicial-override repeal is not
retroactive. Even if the law had been passed before
McMillan was convicted and sentenced he would still
fall outside of its reach if it contained the same
language indicating that it applied only to a
“defendant who is charged with capital murder after
April 11, 2017, and shall not apply retroactively to any
defendant who has previously been convicted of capital

15a
murder and sentenced to death prior to April 11,
2017.”
For the same reasons, McMillan’s claim does not
constitute newly-discovered evidence pursuant to Rule
32.1(e), Ala. R. Crim. P. “Before the allegations in [a]
Rule 32 petition can be considered to be based on
newly discovered evidence, they must meet all five
requirements of Rule 32.1(e).” Musgrove v. State, 144
So. 3d 410, 419 (Ala. Crim. App. 2012), quoting
McCartha v. State, 78 So. 3d 1014, 1017 (Ala. Crim.
App. 2011). Rule 32.1(e), provides five elements that
must be met in order for a fact to constitute newly­
discovered evidence:
“(1) The facts relied upon were not known
by the petitioner or the petitioner’s
counsel at the time of trial or sentencing
or in time to file a post­trial motion
pursuant to Rule 24, or in time to be
included in any previous collateral
proceeding and could not have been
discovered by any of those times through
the exercise of reasonable diligence;
“(2) The facts are not merely cumulative
to other facts that were known;
“(3) The facts do not merely amount to
impeachment evidence;
“(4) If the facts had been known at the
time of trial or of sentencing, the result
probably would have been different; and
“(5) The facts establish that the
petitioner is innocent of the crime for
which the petitioner was convicted or

16a
should not have received the sentence
that the petitioner received.”
Because the legislature chose to exempt from the law
defendants who were convicted before April 11, 2017,
the law, as written, would not have changed the result
of McMillan’s sentencing nor would it have established
that he should not have received the sentence he
received. Accordingly, McMillan’s claim does not meet
the requirements of Rule 32.1(e)(4) or (5), Ala. R. Crim.
P. Thus, the circuit court did not err when it
summarily dismissed McMillan’s petition. See Rule
32.7(d), Ala. R. Crim. P.
III.
The remainder of McMillan’s brief on appeal
explains in detail the reasons that he believes the
judicial-override repeal should be retroactive. He also
puts forth constitutional arguments as to why the
law’s non-retroactivity violates the Sixth, Eighth, and
Fourteenth Amendments to the United States
Constitution.
McMillan concedes that
these
arguments are constitutional in nature and that they
arise under Rule 32.1(a), Ala. R. Crim. P. (McMillan’s
brief, at 15). Rule 32.2(c), Ala. R. Crim. P., specifically
provides that a circuit court “shall not entertain any
petition for relief from a conviction or sentence on the
grounds specified in Rule 32.1(a)[, Ala. R. Crim. P.]”
Similarly, in addition to what was discussed in Section
II above, Rule 32.2(b), Ala. R. Crim. P., provides that
a circuit court shall not grant relief on a successive
petition unless “the petitioner is entitled to relief on
the ground that the court was without jurisdiction to
render a judgment or to impose sentence.” McMillan
does not contend that the trial court lacked jurisdiction
to sentence him to death. Accordingly, both the specific

17a
language of the law in question and Rule 32.2, Ala. R.
Crim. P., establish that McMillan is not entitled to
postconviction relief.
Conclusion
Alabama’s capital-sentencing laws authorized the
trial court to override the jury’s recommendation and
sentence McMillan to death in 2009. Although the
judicial-override provision of the State’s capitalsentencing scheme was repealed in 2017 by § 13A-547, Ala. Code 1975, the legislature specifically
excluded defendants like McMillan from the law with
its simultaneous passage of § 13A-5-47.1. The purpose
of Rule 32 is to allow a petitioner to attack the validity
of a conviction or sentence on the grounds that they
are unconstitutional, unlawful, or imposed by a court
that lacked jurisdiction. See Rule 32.1, Ala. R. Crim. P.
As noted, McMillan does not allege that the court was
without jurisdiction to impose the death sentence nor
does he claim that the sentence was unlawful at the
time it was imposed. The crux of McMillan’s argument
is that § 13A-5-47.1, Ala. Code 1975, is
unconstitutional and, therefore, renders his death
sentence unconstitutional as well. However, attacks
on the constitutionality of a conviction or sentence
under Rule 32.1(a), Ala. R. Crim. P., are subject to the
preclusive bars of Rule 32.2, Ala. R. Crim. P.
Therefore, a successive or time-barred Rule 32 petition
is not the proper vehicle to attack the constitutionality
of § 13A-5-47.1, Ala. Code 1975.
For the foregoing reasons, the judgment of the
circuit court is affirmed.
AFFIRMED.

18a
Welch, Kellum, and Joiner, JJ., concur. Windom,
P.J., recuses.

19a
APPENDIX C
IN THE CIRCUIT COURT OF
ELMORE COUNTY, ALABAMA

Case No.: CC-2008-000476.61
State of Alabama,
v.
McMillan Calvin
Defendant.
Order Dismissing Successive Petition
This matter comes before the Court on Petitioner
Calvin
McMillan’s
successive
petition
for
postconviction relief, the State of Alabama’s answer to
that petition, and the State of Alabama’s motion to
dismiss. Having considered McMillan’s petition, the
State’s answer, and the State’s motion to dismiss, it is
HEREBY ORDERED that the petition be DISMISSED
pursuant to Rules 32.2(c) and 32.2(b) of the Alabama
Rules of Criminal Procedure.
In paragraph 30 of the successive petition,
McMillan states that he brings three constitutional
challenges predicated on the passage of Act Number
2017-131, during the legislature’s 2017 session. That
ground for relief arises under Rule 32.1(a). In addition,
McMillan alleges that his grounds for relief also arise
under Rule 32.1(c) (that his sentence exceeds the
maximum authorized by law), and Rule 32.1(e) (newly
discovered material facts). Because he does not specify

20a
which claims are presented pursuant to which Rule
32.1 ground for relief, the Court has presumed that
McMillan intended for each of his claims to be
presented as a form of each ground for relief.
Act Number 2017-131 amended several parts of
Alabama’s capital sentencing law, but included a
provision that it “shall not apply retroactively to any
defendant whohas previously been convicted of capital
murder and sentenced to death prior to April 11,
2017.” Ala. Code § 13A-5-47.1 (1975). There has been
no change in Alabama’s law that directly applies to
McMillan.
Inasmuch as McMillan’s petition proffers Rule
32.1(a) as a ground for relief, his entire petition is
barred by the statute of limitation contained in Rule
32.2(c). Under
Rule 32.2(c), a “court shall not
entertain any petition for relief from conviction or
sentence on the grounds specified in Rule 32.1(a)”
unless brought within one year of the issuance of the
certificate of judgment by the Court of Criminal
Appeals at the conclusion of the direct appeal. The
Court of Criminal Appeals issued the certificate of
judgment in McMillan’s direct appeal on April 23,
2013. McMillan’s successive petition was filed well
beyond this one-year limitation period.
Accordingly, all three claims in the successive
petition are DISMISSED pursuant to Rule 32.2(c),
inasmuch as they present constitutional challenges. In
addition to McMillan’s admission in paragraph 30, all
three claims in the successive petition clearly allege
that McMillan’s sentence is the product of
constitutional violations. As set forth more fully below,
Rule 32.1(a) is the only legitimate ground for relief
alleged by McMillan.

21a
The Court further finds that McMillan’s second
ground for relief does not challenge his conviction or
sentence. That is, McMillan does not allege that the
sentencing judge violated his right to due process of
law or to equal protection under the law by imposing
a sentence of death. Instead, McMillan’s successive
petition alleges that the legislature’s amendment of
Alabama’s capital sentencing statutes, with the nonretroactivity provision, deprives him of equal
protection and due process. A petition for
postconviction relief attacks a criminal judgment; that
is not what McMillan purports to do in his successive
petition. To the extent McMillan believes the
legislature committed a constitutional wrong by
refusing to make its amendments to Alabama’s capital
sentencing statute retroactive, his claim is against Act
Number 2017-131 or the legislature, not the trial judge
who imposed the sentence in this matter. Accordingly,
the second ground for relief alleged in McMillan’s
petition is DISMISSED for failing to state a valid
claim for postconviction relief.
In the alternative, all three claims in McMillan’s
successive petition are DISMISSED pursuant to Rule
32.2(b), which prohibits relief on a successive petition
unless certain criteria are met. Here, the facts alleged
in the successive petition would not permit McMillan
to establish that the failure to entertain his petition
would result in a miscarriage of justice. The majority
of the “facts” McMillan pleads in support of his Eighth
Amendment “evolving standards of decency” claim
were available when he filed his initial petition and
when he filed an amendment to that petition in
December 2014. Thus, this claim could “have been
ascertained through reasonable diligence when the
first petition was heard.” Ala. R. Crim. P. 32.2(b).

22a
Additionally, the legislature’s passage of Act Number
2017-131, with its non-retroactivity provision, did not
create the basis for a new Eighth Amendment
challenge where none had existed previously.
To the extent McMillan claims that his grounds for
relief arise under Rule 32.1(c), he is incorrect. A
petitioner’s characterization of his grounds for relief is
not controlling on a court. See, e.g., Wallace v. State,
959 So. 2d 1161, 1164 (Ala. Crim. App. 2006); Carr v.
State, 950 So. 2d 1228, 1229 (Ala. Crim. App. 2006);
Goetzman v. State, 844 So. 2d 1289, 1291 (Ala. Crim.
App. 2002); Catchings v. State, 684 So. 2d 168, 169
(Ala. Crim. App. 1995). So, though McMillan alleges
that his sentence now violates the “evolving standards
of decency,” it is without question that the trial judge
possessed the legal authority to sentence McMillan to
death. Additionally, Act Number 2017-131 does not
change this reality, as evidenced by its nonretroactivity provision. McMillan’s first ground for
relief, then, does not arise under Rule 32.1(c). The
same is true of McMillan’s second ground for relief.
His equal protection and due process arguments
attack the constitutionality of the legislature’s
subsequent amendments to Alabama’s sentencing
statutes, but it does not implicate the circuit court’s
legal authority to impose a sentence of death in 2009.
Finally, McMillan’s third ground for relief does not
arise under Rule 32.1(c). The argument that a nonretroactive amendment to a sentencing statute
somehow deprives a circuit court of legal authority
over a prior judicial act is a non-sequitur. Not one of
the three claims asserted in McMillan’s successive
Rule 32 petition arises under Rule 32.1(c).
Nor do any of McMillan’s claims arise under Rule
32.1(e). McMillan contends
that his successive

23a
petition is timely, because it was brought within six
months of the date on which Act 2017-131 was signed
into law. (Pet. at 21.) Thus, McMillan’s successive
petition is predicated on a theory that Act Number
2017-131, alone, is a newly discovered material fact
entitling him to relief. The fact that the legislature
provided that its amendments were not retroactive is
a significant factor weighing against finding that the
enactment of Act Number 2017-131 is a fact which
requires McMillan’s conviction and sentence be
vacated by the Court. Additionally, the legislature’s
amendment, with its non-retroactivity, is not a factual
or legal development that would establish that he
should not have received the sentence imposed. In fact,
because a statute’s enactment in 2017 could never
have been “known at the time of trial,” there are no
circumstances under which McMillan could satisfy
Rule 32.1(e)(4). Thus, McMillan is not entitled to
proceed before the Court under a Rule 32.1(e) theory
for seeking relief.
DONE this 9th day of March, 2018.
/s/ SIBLEY G. REYNOLDS
CIRCUIT JUDGE

24a
APPENDIX D
IN THE CIRCUIT COURT OF
ELMORE COUNTY, ALABAMA

Case No.: CC-08-476
State of Alabama,
Plaintiff,
v.
Calvin McMillan

Defendant.

SENTENCING ORDER
Calvin McMillan was indicted by the Elmore
County Grand Jury on July 25, 2008 for two counts of
capital murder; an intentional murder during the
course of a robbery 1st degree and an intentional
murder while the victim was inside a vehicle. On June
26, 2009, after approximately an hour and twenty
minutes of deliberation, the jury returned verdicts
finding McMillan guilty of both counts of capital
murder.
The penalty phase was presented to the same jury,
beginning on June 29, 2009. On June 30, 2009, after
approximately three hours of further deliberation, the
jury recommended a sentence of life without parole by
a vote of eight to four.
A pre-sentence investigation report was ordered
and has been received and considered by this Court
The Court has also considered the additional

25a
testimony and evidence offered at the sentencing
hearing on August 7, 2009.
After considering the evidence presented at trial,
the evidence presented at the sentencing hearing, the
pre-sentence investigation report and after having
independently weighed the aggravating and
mitigating circumstances this Court has determined
that McMillan should be sentenced to death.
General Findings Concerning the Crime
After a Montgomery Biscuit’s baseball game on
August 29, 2007, James Bryan Martin started home to
be with his wife and two children; a son two years old
and a daughter three months old. After speaking with
his wife on his cell phone, he stopped at the new
Millbrook Wal-Mart in Elmore County, Alabama just
off of I-65 and Alabama Highway 14. After purchasing
some diapers, a soft drink and some Reese’s candy he
returned to his pick-up truck, a four door 2004 Ford F150 with custom wheels and rims, to be confronted by
Calvin McMillan. Martin got in his truck and
attempted to leave. McMillan shot Martin with a 9 mm
High Point pistol while Martin was seated in his truck.
McMillan then pulled Martin out of the truck, threw
him to the ground in the parking lot and shot him
again. After he had shot James Bryan Martin four
times, McMillan got in the truck and left the scene.
Earlier in the day McMillan had asked Rondarrell
Williams to take him from Montgomery to the
Millbrook Wal-Mart so that he could “peel a ride”.
Williams and McMillan took Williams’ girlfriend to
her home in Coosada, dropped her off and later, in her
car, arrived at the Millbrook Wal-Mart. While
Williams knew that McMillan intended to steal a car

26a
and knew that McMillan had a pistol, he did not know
that McMillan intended to kill someone that night.
While Williams was inside the store, McMillan was
scoping out the parking lot searching for his prey. He
walked through the parking lot several times in a
black t-shirt with a fluorescent green skull figure on
front and skeleton likeness on back. He even propped
himself at the front door and watched vehicles come
and go. After having done this for several minutes and
after having observed James Bryan Martin pull into
the parking lot and go into the store, McMillan put on
a red striped pullover shirt and waited for James
Bryan Martin to come back out into the parking lot.
After Martin returned to his truck he was shot four
times and left in the parking lot to die in a pool of blood
while McMillan fled from Millbrook in Martin’s truck.
During the course of the night several BOLO’s were
issued by the Millbrook Police Department after
having talked to witnesses and viewed the security
video from the store.
The next morning, at approximately 9:30 a.m.,
Corporal Manora of Montgomery Police Department
spotted and pulled in behind James Bryan Martin’s
truck. The driver of the truck pulled into a parking lot
at Bridgecroft Apartments in Montgomery, jumped out
of the truck and took off running.
Millbrook police were contacted and the truck was
transported to the Alabama Bureau of Investigation
where it was processed for fingerprints. Later, the
truck was turned over to Millbrook Police Department
and it was driven to Millbrook where it was
inventoried.

27a
The truck was filled with Calvin McMillan’s
belongings. It contained bags with his clothes, shoes
and hats; a karaoke machlne and iron; and the black
shorts that he had on at the time of the murder that
contained an empty 9 mm shell casing in one pocket
and a Reese’s candy wrapper in another pocket. The
black shirt with the fluorescent green skull on front
and skeleton on back was located in the back
floorboard of the truck. A ‘Wild Hogs” DVD that James
Bryan Martin had rented and not yet returned to
Movie Gallery was found in Calvin McMillan’s bag
with his other belongings as well as Martin’s
ownership and loan documents for the truck, one now
containing Calvin McMillan’s signature.
A High Point 9 mm pistol was located in the pocket
behind the driver’s seat under some of McMillan’s
clothes. The pistol contained four unfired rounds
which, when tested, matched the shell casings located
at the scene of the murder and the shell casing which
was found in the pants. Also recovered were disposable
cameras which contained pictures of Calvin McMillan
with the gun and money lying on a bed as well as
pictures of McMillan glaring into the camera, pointing
the gun directly at it and making some kind of sign
with his hand. Additionally, the photographs, among
other things, showed the red striped shirt in a closet
behind McMillan.
The same day that the truck was located on August
30, 2009, Calvin McMillan was arrested. After being
confronted with the presence of his fingerprints in and
around the truck during interrogation by Investigators
Evans and Pelham at the Millbrook Police
Department, McMillan stated that an individual
named Melvin Browning had let him ride in the truck
and was going to take him to Hardaway with all of his

28a
worldly possessions. He further stated that Browning
had run off with all of his possessions and that he had
intended to report that theft to the authorities. Melvin
Eugene Browning was later located by investigators
and testified and proved that he was in the Lee County
Jail from August 28, 2007 through August 31, 2007.
Procedural History
As stated earlier, McMillan was indicted by an
Elmore County Grand Jury in July 2008 for two counts
of capital murder. The first count was the intentional
murder of James Bryan Martin during the course of a
robbery 1st degree in violation of Section 13A-540(a)(2). The second count was the intentional murder
of James Bryan Martin while James Bryan Martin
was inside a vehicle in violation of Section 13A-540(a)(17).
The guilt phase of this case began on June 23, 2009
after jury selection on June 22 and continued through
June 26 when, after deliberating for approximately an
hour and twenty minutes, the jury returned verdicts
finding McMillan guilty on both counts of capital
murder.
The State’s case consisted of the evidence as
outlined above as well as other evidence. The Defense
called only one witness, Private Investigator Shannon
Fontaine, who testified that there is a good supply of
High Point 9 mm pistols in the Montgomery area
available for purchase and similar to the one that was
used to commit the murder in this case.
The penalty phase portion of this case was
presented to the same jury on June 29 and 30.
The State presented evidence of the defendant’s
assault 3rd degree conviction out of Dallas County

29a
from December 20, 2006 and further presented
testimony from James Bryan Martin’s father and wife.
Thereafter, McMillan presented his penalty phase
evidence consisting of testimony from his sister, his
aunt, a social worker and his natural father.
Additionally, the Defense called two expert type
witnesses who testified regarding McMillan’s
background from a review of the Department of
Human Resources’ records, the forensic evaluation
performed by Dr. Karl Kirkland pursuant to this
Court’s order for a mental evaluation, and interviews
with McMillan’s family. These witnesses testified
regarding McMillan’s poor and abusive upbringing
and his history. After approximately three hours of
deliberation on June 30, 2009, the jury recommended
a sentence of life imprisonment without the possibility
of parole by an eight to four vote.
A final sentencing hearing was held on August 7,
2009 wherein additional witnesses testified on behalf
of the State and Defense.
Finally, this Court notes that Mr. Kenny James and
Mr. Bill Lewis ably represented McMillan. McMillan’s
attorneys were well prepared, diligent, and performed
admirably in their defense of McMillan. Based on the
overwhelming evidence against McMillan in this case
and the eventual outcome, this Court finds that
McMillan’s attorneys provided effective assistance
throughout these entire proceedings.
Aggravating and Mitigating Circumstances
I. Aggravating Circumstances
The State raised and this Court has considered only
one statutory aggravating circumstance during the
penalty phase of this case; that being that the capital

30a
offense was committed while the defendant was
engaged in the commission of a robbery under Section
13A-5-49(4). Since this aggravator is identical to the
capital murder conviction returned by the jury under
count I, this Court treated it as “self-proved”, meaning
that the jury did not have to find that the State proved
its existence beyond a reasonable doubt for a second
time during the penalty phase.
Of
all
the
aggravating
and
mitigating
circumstances in this case, this Court places the most
weight on the fact that McMillan intentionally killed
James Bryan Martin while in the course of robbing
him of his truck. Not only is the intentional murder of
a human being in order to take their property from
them morally and legally reprehensible, but also the
commission of such an offense is so reprehensible that
it is “double counted” under our law as a reason to
make a murder capital and weigh as an aggravating
circumstance in favor of the death penalty.
The facts in this case clearly establish that
McMillan set out not only to take another person’s
vehicle but also to take their life as well. He calmly and
coldly observed unsuspecting citizens while deciding
which vehicle he wanted to take. James Bryan Martin
just happened to be in the wrong place at the wrong
time while running an errand for his family and
having a nice truck.
Not only did McMillan intentionally murder James
Bryan Martin in the parking lot of the Millbrook WalMart and drive away in his truck, but he also later
signed his name to ownership documents attempting
to convert the ownership of the truck to himself.
McMillan even ate James Bryan Martin’s Reese’s

31a
candy and put James Bryan Martin’s rented DVD with
his own belongings.
Facts such as or very similar to these have
supported the application of the death penalty many,
many times. As a result, this Court weighs the fact
that McMillan killed James Bryan Martin while
robbing him of his truck and McMillan’s actions
leading up to and following the murder as weighing
most heavily in favor of imposing the death penalty.
II. The Remaining Statutory Aggravators
As required by Section 13A-5-47(d), this Court must
state the absence of the remaining statutory
aggravating circumstances. This Court finds that the
following aggravating circumstances do not exist and
were not alleged by the State: 1) the capital offense
was not committed by a person under sentence of
imprisonment; 2) McMillan had not been previously
convicted of another capital offense or a felony
involving the use or threat of violence to the person; 3)
McMillan did not knowingly create a great risk of
death to many persons; 4) the capital offense was not
committed for the purpose of avoiding or preventing a
lawful arrest or affecting an escape from custody; 5)
the capital offense was not committed for pecuniary
gain; 6) the capital offense was not committed to
disrupt or hinder the lawful exercise of any
governmental function or the enforcement of the law;
7) the capital offense was not especially heinous,
atrocious, or cruel compared to other capital offenses;
8) the defendant did not intentionally cause the death
of two or more persons by one act or pursuant to one
scheme or one course of conduct; and 9) the capital
offense was not one of a series of intentional killings
committed by the defendant Since these aggravating

32a
circumstances were neither alleged nor proven, this
Court assigns no weight to these factors.
The Mitigating Circumstances
As required by Section 13A-5-47(d), the Court must
also consider and discuss each of the statutory
mitigating circumstances, as well as the non-statutory
mitigating circumstances alleged by McMillan.
Because this case also involves a jury recommendation
of life without parole, the Court must also discuss in
detail its reason for overriding this mitigating factor.
I. Statutory Mitigating Circumstances
This Court finds the existence of two statutory
mitigators. Those are that the defendant had no
significant history of prior criminal activity and the
age of the defendant at the time of the crime.
During the trial of this case the jury was informed
that the defendant had been convicted of assault 3rd
degree in December of 2006. The law of this state
generally requires that misdemeanor convictions may
not be considered for the purposes of negating this
mitigator. However, the misdemeanor offense of
assault 3rd degree can be used to negate the
mitigating circumstance of “no significant history of
prior criminal activity” because it is a crime of
violence. Stallworth v State, 868 So.2d 1128 (Ala.
Crim. App. 2001).
Accordingly, even though McMillan has no prior
felony convictions, the Court finds that this statutory
mitigator is significantly diminished by his assault 3rd
degree conviction.
Additionally, the Court may use a defendant’s
juvenile record to diminish the weight to be accorded

33a
the mitigating circumstance of that defendant’s lack of
significant history of prior criminal activity as well as
the mitigating circumstance of that defendant’s age at
the time he committed the capital offense. Ex parte
Carroll, 852 So.2d 833 (Ala. 2002). As stated elsewhere
in this order, McMillan has a significant juvenile
record consisting of adjudications of guilt in two cases
of domestic violence 3rd degree, one case of assault 3rd
degree, one case of menacing, one case of reckless
endangerment, one case of theft 3rd degree and one
case of burglary 3rd degree.
With regard to the statutory mitigator dealing with
the age of the defendant at the time of the crime, the
evidence has established that McMillan was 18 years
of age at the time that he murdered James Bryan
Martin. Therefore, this Court finds that this statutory
mitigator does exist. However, based upon his juvenile
record and other factors this Court assigns little
weight to this factor.
Not only did McMillan have a juvenile record of
violence, but he also possessed the pistol that the used
to kill James Bryan Martin as well as ammunition for
other weapons. McMillan also had been emancipated
prior to committing this crime, had an adult conviction
for assault 3rd degree and had obtained a job.
II. Remaining
Circumstances

Statutory

Mitigating

In accordance with Section 13A-5-47(d), this Court
must state that it finds that the remaining statutory
mitigators do not exist in this case. Accordingly, based
upon the evidence presented in this case, the Court
finds that there is no evidence that the defendant was
under the influence of extreme mental or emotional
disturbance at the time that this capital offense was

34a
committed. To the contrary, it is clear that the
defendant did have the ability to distinguish between
right and wrong and was able to control his actions.
The victim in this case, James Bryan Martin, was not
a participant in the defendant’s conduct nor did he
consent to it in any way. McMillan was not an
accomplice in this capital offense as he committed it
His participation was not relatively minor as he
planned and carried out this murder robbery. There is
no evidence that McMillan acted under extreme duress
or under the substantial domination of another person.
Further, McMillan clearly had the capacity to
appreciate the criminality of his conduct and his
ability to conform his conduct to the requirements of
the law was not substantially impaired. Testimony
provided from previous written reports of Dr. Karl
Kirkland and Dr. Majure establish that McMillan does
in fact know the difference between right and wrong
and that he was aware of and in control of his behavior.
Non-Statutory Mitigating Circumstances
Under Section 13A-5-47(d), this Court must also
consider each of the non-statutory mitigating
circumstances argued by McMillan. In accordance
with Section 13A-5-52, this Court recognizes that a
non-statutory mitigating circumstance can include
evidence concerning the defendant’s character, life, or
record; the facts of the crime; mercy for the defendant
and any other relevant information for sentencing
purposes.
This Court has considered al] of the non-statutory
mitigating evidence presented by McMillan. As
outlined below, McMillan submitted testimony and
argument to the jury on the following non-statutory
mitigating circumstances: that he was raised in

35a
extreme poverty; that he was abandoned by his
mother; that he was physically abused as a child; that
he was raped as a child; that he was a witness to his
mother’s and sister’s abuse; that he was raised in the
home of an alcoholic/drug addict; that he did not get
the treatment he needed; that he had no positive male
role models; that he suffered from psychological and
emotional difficulties; and that his intellectual
functioning was in the borderline range.
As stated earlier, the Defense called a number of
witnesses who testified during the penalty phase of
this trial. McMillan’s sister, Ella Torrance, testified
that she, her sister and McMillan were basically left to
fend for themselves by their alcoholic and drug
addicted mother. Although Ms. Torrance and her
sister were born while their mother lived in New York
and abandoned them there, McMillan was not born
until after they arrived in the Montgomery and Macon
County area. They lived with her mother’s abusive
boyfriend and it was claimed that he physically bused
the children as well as their mother by beating them
and threatening to shoot them with a pistol. The
mobile home that they resided in often did not have
electricity nor did it have running water. Further,
there was very little food available for the children to
eat while they were growing up.
Ms. Torrance also reported that McMillan had been
sexually abused by the son of their mother’s boyfriend.
It is noted however, that this report of sexual abuse is
not documented in any record until McMillan reported
it to Dr. Karl Kirkland during Dr. Kirkland’s mental
evaluation for the purposes of determining whether
this case should proceed to trial.

36a
McMillan’s aunt, Carol Weaver Christian, testified
to facts similar to those as testified by McMillan’s
sister, Ella Torrance. Ms. Christian took temporary
custody of these three children and attempted to raise
them with her four children. However, the children
had to go back into the custody of the Department of
Human Resources, as Ms. Christian was unable to
care for all of them. Since the trial, this Court has
learned, based upon its review of McMillan’s juvenile
records, that his aunt also requested to be relieved of
her temporary custody agreement because she could
not govern McMillan’s negative behavior
Mr. Teal Dick, a licensed professional counselor and
director of the Alabama Family Resource Center,
testified as well based upon his review of the records
of the Department of Human Resources and his
interviews with McMillan and some of McMillan’s
family members. Mr. Dick’s testimony revealed that
McMillan and his family’s contact with the
Department of Human Resources began in 1995.
These records confirmed many of the same reports as
testified to by McMillan’s sister with regard to the
living conditions and threats and abuse suffered by
McMillan, his sisters and his mother.
By the time that McMillan was committed to foster
care by the Department of Human Resources he was
already aggressive and angry. Within a six-year
period. McMillan was in and out of twenty-five
different homes and placements. At one point, one of
his foster parents even tried to get him involved in
YMCA basketball but he refused to do so.
Emma Cosby, also known as Emma Peoples, a social
worker who had contact with McMillan through her
work with SAFY, a therapeutic foster care

37a
organization, testified on McMillan’s behalf as well.
She stated that it was her opinion that “the system”
had failed McMillan while he was growing up.
However, in 2001 she tried to take steps to control his
rebellious and aggressive behavior but was
unsuccessful. She reported that McMillan had
threatened she and a foster parent with what she later
found out was an electric toothbrush. After seeking the
intervention of law enforcement, in April 2001,
McMillan further threatened Ms. Cosby by telling her
that she would find her new born baby’s head lying in
a pool of blood when she got home. As a result of this
behavior, McMillan was placed in the HIT program,
which is a detention type setting. McMillan was
enrolled in special education classes while in school
due to his tendency to threaten others and he was in
fact removed from the Safety Net Residential Program
after he assaulted another student.
Eddie Tucker, McMillan’s biological father testified
during the penalty phase as well. He established that
he had very little contact with McMillan but would
have been willing to take him in and raise him in his
home if he had had the opportunity.
Dr. Kimberly Ackerson also testified on behalf of the
Defense. Dr. Ackerson is a forensic psychologist with a
private practice in Birmingham, Alabama. Dr.
Ackerson reviewed the DHR records, met with the
defendant and spoke with his aunt and sister. Dr.
Ackerson did not do any testing of McMillan although
she did review the report that was generated by Dr.
Karl Kirkland who did. Dr. Kirkland, in his evaluation
prepared for this Court, conducted a number of tests
in arriving at his diagnostic impressions and an IQ
score of 76 for McMillan.

38a
Dr. Ackerson’s testimony was basically a recap of
the testimony of the other witnesses. She did, however,
testify from the records that it had been determined by
other professionals that McMillan knew the difference
between right and wrong and that in 2001 Dr. Majure
had reported that there was no evidence that
McMillan was suffering from psychosis and that
McMillan was aware of and in control of his behavior.
She further acknowledged that her review of the
records revealed that McMillan’s alleged sexual abuse
was first reported to Dr. Kirkland by McMillan at the
time of his interview.
With regard to the Defense’s claim of borderline
intellectual functioning the Court notes that Dr.
Kirkland’s report established that McMillan has an IQ
of 76. McMillan is not mildly retarded, but functions
in the classification range immediately above the mild
mental retardation as well as in the range of low
average intellectual functioning. Dr. Kirkland, in his
report, further stated that while McMillan functions
on a fourth grade reading level, his intellectual
functioning and social adaptive functioning were on a
high borderline to low average intellectual level.
In reviewing and considering the non-statutory
mitigating circumstances, as a whole, this Court
assigns very little weight to them.
McMillan’s sister, Ella Torrance, was raised in the
same home and under the same conditions as he was.
She graduated from school, owns her own car, has a
good job, supports herself and has not been involved in
any criminal conduct.

39a
Jury’s Recommendation
Finally, under Ex parte Carroll, 852 So.2d 833 (Ala.
2002), this Court addresses the mitigating factor of the
jury’s recommendation of a life sentence without the
possibility of parole. In Carroll, the Supreme Court
outlined the factors for judging the propriety of a jury’s
recommendation of life imprisonment without the
possibility of parole:
“the weight to be given that mitigating
circumstance should depend upon the
number of jurors recommending a
sentence of life imprisonment without
parole, and also upon the strength of the
factual basis for such a recommendation
in the form of information known to the
jury, such as conflicting evidence
concerning the identity of a “trigger
man” or a recommendation of leniency by
the
victim’s
family;
the
jury’s
recommendation may be overridden
based upon information known only to
the trial court and not to the jury, when
such information can properly be used to
undermine a mitigating circumstance.”
Additionally, the Supreme Court in Carroll took
notice of “the circumstances of the crime (particularly
that the defendant made no attempt to kill the
witnesses to the crime). Using these factors, this Court
distinguishes this case and Carroll and will explain its
decision for overriding the jury’s recommendation.
Distinguishing Ex Parte Carroll
Carroll and Martin and the cases decided after
them, mandate this Court to address its reasons for

40a
overriding
the
jury’s
advisory
sentencing
recommendation. Using the factors outlined in
Carroll, the following distinctions are made:
A)

Number of Jurors Recommending Life:

In Carroll, ten jurors recommended life without
parole. Here, eight jurors made such a
recommendation, one number greater than the
statutory minimum to allow a life without parole
recommendation.
Just as this Court is unable to read the minds of any
witnesses or parties, likewise it is unable to read the
minds of the jury. However, the Court had an
opportunity to work with and observe these jurors for
almost a week and a half.
Based on the overwhelming evidence in this case
and the unanimous verdicts on both counts of capital
murder, it is not easy to determine why eight members
of the jury voted against the death penalty in this case.
It is highly possible that fewer than eight jurors
initially voted for life without parole and that the
number of those jurors voting for life without parole
only increased as they grew tired of the process and
dealt with the weight that a death recommendation
would have on each of them.
In the end, this Court is unable to specifically say
why the jury was unable to follow the law to make a
recommendation of death in this case. The only fact
that is known, is that two more jurors ultimately voted
for the death penalty in this case than in Carroll. The
Court finds that that weighs in favor of an override of
the jury’s recommendation in this case; at least in
comparison to Carroll.
B)

Conflicting Evidence of the “Trigger Man”:

41a
While the facts in Carroll may have left some doubt
as to the identity of the of the “trigger mann, all of the
evidence in this case points to McMillan as the
perpetrator. As outlined in great detail earlier in this
order, the State’s evidence established beyond all
reasonable doubt that McMillan intentionally
murdered fames Bryan Martin while robbing him of
his truck The jury unanimously returned a verdict in
approximately an hour and twenty minutes finding
that McMillan killed James Bryan Martin. If there
was any residual doubt as to any other person’s
involvement in these murders, as there apparently
was in Carroll, it is not founded upon the evidence
presented at trial or in the jury’s guilt phase verdicts.
Accordingly, in comparison to Carroll, judicial override
is proper in this case.
C)

Recommendation of Victim’s Family:

In Carroll, the victim’s family recommended Carroll
not receive the death penalty. No person from the
Martin family has made any such recommendation in
this case. In fact, members of James Bryan Martin’s
family were properly precluded from giving any
testimony with regard to their recommendation of
McMillan’s sentence in one way or another.
Accordingly, in comparison to Carroll, judicial override
is proper in this case.
D)
Facts
Witnesses:

of

the

Crime/Not

Killing

the

Although in Carroll, the defendant did not kill all
the witnesses and the Supreme Court found that that
factor weighed in favor of a life without parole
sentence that is not the case here. The main witness to
McMillan’s robbery was James Bryan Martin and
McMillan killed him so he could escape in Martin’s

42a
truck. The surrounding circumstances of this crime did
not afford McMillan with an opportunity to kill or not
kill other potential witnesses. Accordingly, in
comparison to Carroll, judicial override is proper in
this case.
E)

Additional Facts Unknown to the Jury:

Finally, Carroll also allows this Court to consider
information known only to the trial court and not to
the jury, when such information can properly be used
to undermine a mitigating circumstance. This Court
places substantial weight on this factor in this case.
This Court has had the benefit of working on this
case since shortly after the Grand Jury returned the
indictment. It has held numerous evidentiary hearings
in preparation for the trial of this case. This Court has
had an opportunity to observe McMillan’s demeanor
and conduct throughout these proceedings. He has
shown no emotion nor has he indicated any remorse
whatsoever.
In the course of preparing the mental evaluation Dr.
Karl Kirkland interviewed McMillan. McMillan
concocted a story about a “drug deal gone bad” when
relating the facts of this case to Dr. Kirkland.
Obviously, the evidence presented in this case
including the video evidence in no way support such a
story.
During the penalty phase of this case the jury was
informed that McMillan had been convicted of assault
3rd degree on December 20, 2006 in Dallas County.
The jury was not told that the facts supporting this
crime to which McMillan pled guilty, established that
McMillan was chasing another student at the Safety
Net Program, caught up with him and pushed him to

43a
the ground injuring his knee because the other student
had told on McMillan for choking him.
Additionally, McMillan has a substantial juvenile
record dating back to the age of 12. During the almost
six years between December 8, 2000 and November 1,
2006 McMillan was adjudicated guilty in two cases of
domestic violence 3rd degree, one case of assault 3rd
degree, one case of menacing, one case of reckless
endangerment, one case of theft 3rd degree and one
case of burglary 3rd degree. Of these seven offenses,
only two of them are non-violent offenses.
McMillan’s domestic violence adjudications both
involved altercations that he had with one of his foster
parents, Wilhemenia Boykin. On two occasions he hit
her in the head and shoulder and in another he
threatened to kill her. Twenty-nine months later he
was adjudicated guilty of reckless endangerment,
menacing and assault 3rd degree arising out of him
shooting a “BB” gun at students at Loachapoka High
School, shooting at one young man specifically and
shooting a young lady in the thigh.
McMillan has been incarcerated in the Elmore
County Jail since his arrest in this case. During this
time he has assaulted at least two different inmates.
One of those has been assaulted with a bar of soap
inside a sock and a second one was cut on his right eye,
shoulder and hand using a jail made “shank.” During
the trial of this case and on July 8, 2009, jail made
handcuff keys were found in McMillan’s constructive
possession. Additionally, a few weeks before trial the
lock on McMillan’s cell door was found bent so that the
door would not close and lock correctly.
In addition to these facts, shortly after McMillan
and his co-defendant Rondarrell Williams were

44a
arrested, McMillan sent a letter to Williams telling
him to lie about what happened. In September 2008
McMillan threatened Williams’ life and the life of his
family if Williams testified against him in this case.
Since none of the factors listed by the Alabama
Supreme Court in Carroll “tips the scales in favor of
following the jury’s recommendation” this Court finds
no legal prohibition for overriding the jury’s
recommendation.
These facts significantly diminish the statutory and
non-statutory mitigating circumstances that have
been presented in this case.
Justification For Override
Under Alabama Law the trial judges are required to
make the ultimate determination with regard to
sentencing. In Harris v. Alabama, 513 US 504 (1995),
the Supreme Court of the United States held:
“the Constitution permits a trial judge,
acting alone, to impose a capital
sentence. It is thus notoffended when a
state further requires a sentencing judge
to consider a jury’s recommendation and
trust a judge to give it the proper
weight.”
This responsibility of making this decision has been
placed upon the trial judge’s of this state in general
and this Court in particular by the legislature through
the Alabama Criminal Code.
This Court has had the opportunity to try and
impose the sentence in a number of capital murder
cases over the last twenty-two years and eight months.
In some of these cases, this Court has imposed death.

45a
In others, it has imposed a sentence of life without
parole. In each of these cases this Court has followed
the recommendation of the jury. In this case however,
the Court finds that a proper weighing of the
aggravating
circumstance
and
mitigating
circumstances does not support a sentence of life
without parole.
The Court is aware of many cases in Alabama over
the years where the death penalty has been upheld as
the appropriate punishment for the capital offense of
an intentional murder during the course of committing
a robbery 1st degree. In fact, this Court has been
affirmed most recently on direct appeal of Charlie
Washington v. State of Alabama, 922 So.2d 145(Ala.
Crim. App. 2005) cert denied June 16, 2005 Ala. S. Ct,
cert denied, Washington v. Alabama, 546 US 1142
(2006) in it’s imposition of a death sentence after
Washington was convicted of an intentional murder
during a robbery 1st degree. Additionally, the Court of
Criminal Appeals in Bush v. State, 2009 WL 1496826
(Ala. Crim. App. 2009) again affirmed the trial court
in ruling on a Rule 32 appeal when the trial court
sentenced the defendant to death after having received
a life without parole recommendation from the jury
with a twelve to nothing vote. Further, in Ferguson v.
State, 2008 WL 902901 (Ala. Crim. App. 2008) the trial
court was again affirmed on a review of a Rule 32
appeal on a robbery murder when the trial judge
sentenced the defendant to death after receiving a jury
recommendation oflife without parole by a vote of
eleven to one.
No juror is in a position to compare this case with
other capital cases as they do not have the resources
and benefit of the decisions from the appellate courts
nor the personal experience received by trying and

46a
deciding these types of cases. When this Court
compares the facts of this case to similar cases there is
little question that “when compared to other cases
with similar facts, a sentence of death is not in any
way a disproportionate sentence”.
Conclusion
This Court has sworn an oath to uphold the law of
this state, and this is a duty that it does not take
lightly. This Court will continue, to best of its ability,
follow the law of this state and of this country.
The law as it applies to this case requires the Court
to weigh the aggravating circumstance against the
mitigating circumstances, which includes the jury’s
recommended sentence of life without parole.
This Court has fulfilled that duty and has
considered each of McMillan’s mitigating factors as set
forth above and all the evidence presented by
McMillan at trial, during the penalty phase of this case
and at the final sentencing hearing. This Court has
also given great consideration to the jury’s
recommendation and considers it to be the heaviest
mitigator in this case. After taking all of these factors
into consideration this Court cannot find that the
mitigating circumstances outweigh the aggravating
circumstance of the intentional killing of an innocent
victim while in the course of robbing him for his truck.
Facts similar to these have led to a sentence of death
in many cases. Accordingly, this Court finds that the
sentence in this case should be death.
It is therefore ORDERED, ADJUDGED and
DECREED that the defendant, Calvin McMillan, is
adjudged guilty of one count of capital murder
pursuant to Section 13A-5-40(a)(2) of the intentional

47a
murder of James Bryan Martin during the course of a
robbery 1st degree and the defendant, Calvin
McMillan is further adjudged guilty of one count of
capital murder under Section 13A-5-40(a)(17) capital
offense of the intentional murder of James Bryan
Martin while James Bryan Martin was inside a
vehicle.
It is further ORDERED, ADJUDGED and
DECREED that pursuant to Section 15-18-68 Code of
Alabama, 1975, as amended in Act #2009-632, the
Defendant shall pay restitution in the amount of
$100,000.00.
It is further ORDERED, ADJUDGED and
DECREED that for the capital offenses for which e has
been adjudicated guilty, the defendant, Calvin
McMillan, is hereby sentenced to death by lethal
injection. Pursuant to Alabama Rules of Appellate
Procedure 8(b)(1), the date of execution is to be set by
the Alabama Supreme Court. at the appropriate time.
The Defendant is to be remanded to the custody of the
Alabama Department of Corrections to await
execution of his sentence.
DONE and ORDERED this 7th day of August 2009.
s/ John B. Bush
JOHN B. BUSH
Circuit Judge

